<html>
<title> - THE WAR AGAINST TERRORISM: WORKING TOGETHER TO PROTECT AMERICA</title>
<body><pre>[Senate Hearing 108-137]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 108-137
 
     THE WAR AGAINST TERRORISM: WORKING TOGETHER TO PROTECT AMERICA
=======================================================================


                                HEARING

                               before the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 4, 2003

                               __________

                           Serial No. J-108-3

                               __________

         Printed for the use of the Committee on the Judiciary






                        U.S. GOVERNMENT PRINTING OFFICE
89-325                        wASHINGTON  : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001







                       COMMITTEE ON THE JUDICIARY

                     ORRIN G. HATCH, Utah, Chairman
CHARLES E. GRASSLEY, Iowa            PATRICK J. LEAHY, Vermont
ARLEN SPECTER, Pennsylvania          EDWARD M. KENNEDY, Massachusetts
JON KYL, Arizona                     JOSEPH R. BIDEN, Jr., Delaware
MIKE DeWINE, Ohio                    HERBERT KOHL, Wisconsin
JEFF SESSIONS, Alabama               DIANNE FEINSTEIN, California
LINDSEY O. GRAHAM, South Carolina    RUSSELL D. FEINGOLD, Wisconsin
LARRY E. CRAIG, Idaho                CHARLES E. SCHUMER, New York
SAXBY CHAMBLISS, Georgia             RICHARD J. DURBIN, Illinois
JOHN CORNYN, Texas                   JOHN EDWARDS, North Carolina
            Makan Delrahim, Chief Counsel and Staff Director
      Bruce A. Cohen, Democratic Chief Counsel and Staff Director






                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Feingold, Hon. Russell D., a U.S. Senator from the State of 
  Wisconsin......................................................    40
Hatch, Hon. Orrin G., a U.S. Senator from the State of Utah......     1
    prepared statement...........................................    63
Kohl, Hon. Herbert, a U.S. Senator from the State of Wisconsin, 
  prepared statement.............................................    66
Kyl, Hon. Jon, a U.S. Senator from the State of Arizona..........    18
Leahy, Hon. Patrick J., a U.S. Senator from the State of Vermont.     3
    prepared statement...........................................    67

                               WITNESSES

Ashcroft, John D., Attorney General, Department of Justice, 
  Washington, D.C................................................     6
Mueller, Robert S., III, Director, Federal Bureau of 
  Investigation, Department of Justice, Washington, D.C..........    13
Ridge, Thomas J., Secretary, Department of Homeland Security, 
  Washington, D.C................................................    11

                       SUBMISSIONS FOR THE RECORD

Ashcroft, John D., Attorney General, Department of Justice, 
  Washington, D.C., prepared statement...........................    50
Mueller, Robert S., III, Director, Federal Bureau of 
  Investigation, Department of Justice, Washington, D.C., 
  prepared statement.............................................    72
Ridge, Thomas J., Secretary, Department of Homeland Security, 
  Washington, D.C., prepared statement...........................    82


     THE WAR AGAINST TERRORISM: WORKING TOGETHER TO PROTECT AMERICA

                              ----------                              


                         TUESDAY, MARCH 4, 2003

                                       U.S. Senate,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:48 a.m., in 
room SD-226, Dirksen Senate Office Building, Hon. Orrin G. 
Hatch, Chairman of the Committee, presiding.
    Present: Senators Hatch, Grassley, Specter, Kyl, DeWine, 
Sessions, Graham, Craig, Chambliss, Leahy, Kennedy, Biden, 
Kohl, Feinstein, Feingold, Schumer, and Durbin.

 OPENING STATEMENT OF HON. ORRIN G. HATCH, A U.S. SENATOR FROM 
                       THE STATE OF UTAH

    Chairman Hatch. Good morning, and welcome to the 
Committee's important hearing examining the war against 
terrorism and the coordinated efforts of the Department of 
Justice and the Department of Homeland Security to protect 
America. I want to welcome all three of our distinguished 
witnesses who are here before us today. It is indeed an honor 
to have before the committee Attorney General John Ashcroft, 
Secretary Tom Ridge, and Federal Bureau of Investigation 
Director Bob Mueller. I understand that each of you is 
extremely busy, and I want to express my appreciation for your 
taking time to appear before us today.
    I also want to take a moment to acknowledge Secretary 
Ridge's appearance since it is his first occasion to testify 
before this committee since his confirmation at Secretary of 
the new Department of Homeland Security. So I am happy and we 
are all happy to see you here before the committee, Tom.
    Today's hearing will focus on the war against terrorism and 
coordinator efforts to disrupt and disable terrorist 
organizations and to protect our country from terrorist 
attacks. I am committed to legitimate oversight to examine 
critical issues related to our country's war against terrorism. 
Senators Leahy, Grassley, and Specter issued an oversight 
report last week on issues surrounding the Foreign Intelligence 
Surveillance Act, and I have responded to the Senators 
providing certain observations on that report. It is my hope 
that in the coming months that Director Mueller can return 
before the committee to address significant oversight issues 
surrounding FISA, and we will hold that hearing, and I am sure 
that the Director will return. I believe there are important 
issues relating to implementation of the November 18, 2002, 
Foreign Intelligence Review Court's decision, as well as the 
internal Justice Department and FBI reforms, which this 
committee should address in greater detail in a later oversight 
hearing. So we intend to go into these matters even though they 
probably won't be gone into in as much detail here today, 
although it depends on our colleagues.
    We all recognize that these are challenges times for our 
country, and that the American public, I believe, appreciates 
your leadership, your commitment, and heroic effort to protect 
our country and our people from devastating terrorist attacks.
    As we recognize here in Congress and as the American people 
should know, every day through your efforts you are saving 
American lives. Now, I know that you cannot trumpet each and 
every one of your successes without compromising sensitive 
intelligence, covert operations, and strategic planning. I was 
just in the Intelligence Committee today listening to some of 
our leaders in the efforts in counterterrorism. And I am really 
pleased with the efforts that have gone on, that are going on, 
that in many ways the public will never know, but real efforts 
to try and help protect our country and our people.
    Your efforts to win this war have borne fruit on many, many 
occasions. Just last Saturday, United States law enforcement 
and intelligence agents, working together with Pakistani 
intelligence agents, captured a significant Al-Qaeda terrorist, 
Khalid Shaikh Mohammed, the Al-Qaeda senior lieutenant who 
served as the operations manager and alleged mastermind behind 
the September 11th attacks, as well as numerous other deadly 
attacks against Americans worldwide. This latest success is 
indeed significant. It represents a striking example of the 
President's and this administration's commitment and efforts in 
the global war against terrorism. The apprehension of Khalid 
Shaikh Mohammed is just one more success in a string of 
successes by you and others in the law enforcement and 
intelligence communities aimed at disrupting and eliminating 
Al-Qaeda from the face of this earth. So I want to commend each 
of you, as well as the many hard-working agents who are 
fighting this global war, for this latest accomplishment.
    Now, even with this recent accomplishment, however, I 
recognize that there is more to be done. Now, it goes without 
saying that Americans are experiencing very trying and anxious 
times. It has been almost a year and a half since terrorists 
attacked our country, killing almost 3,000 people. The enemy is 
unlike any that we have faced before: deadly, well-financed 
international terrorists whose tentacles reach into every 
corner of the globe and who are ready to give their lives in 
order to destroy other people's lives. Make no mistake: the 
threat to our country continues today. Terrorist organizations 
exist within our borders and throughout the world. They are 
fanatics committed to the destruction of America and will do 
anything to harm our country and our people.
    Terrorists will use any means to defeat America. Their 
means to their gruesome ends will evolve. And our ability to 
respond must evolve, and we must embrace new tools and new 
approaches. We must ensure that law enforcement, intelligence, 
and homeland security agencies are given the tools and the 
resources needed to protect our country.
    So I look forward to hearing from each of you and your 
assessments of our country's global war against terrorism, your 
efforts to implement initiatives and programs needed to protect 
our country, and your ideas of areas where more is needed to 
address current needs. I do in the hope of continuing our 
bipartisan commitment to enacting measures to win the war 
against terrorism and make our country safe. Our commitment to 
working together hopefully is unwavering, and I personally will 
do whatever is necessary to see that we do work together. The 
American people expect nothing less from us, and I intend to 
see that we do what has to be done.
    So I want to thank you, and I am going to turn to the 
ranking member, Senator Leahy, for his opening statement, and 
then we will turn to your statements starting with Attorney 
General Ashcroft.
    Senator Schumer. Mr. Chairman, just before Senator Leahy, I 
was glad to hear that Mr. Mueller will come back for a 
separating hearing. But I would ask that--this is such an 
important issue. We are creating a whole new agency. And we 
have 3 hours here for all three witnesses together. Many of us 
won't even get to ask any questions. If we could make time, I 
think it is important enough to have each witness come 
individually and give us some time, because I have so many 
questions. I know every one of my colleagues does on both sides 
of the aisle. It seems that we are not giving this the 
attention time--and I am sure the witnesses would be willing, 
if we accommodated their schedules, to come back individually.
    Chairman Hatch. Well, we will certainly take that under 
consideration. Let me tell you, 3 hours from these three 
gentlemen is like the world up here. I think we will have time 
for everybody to ask questions. We are going to have 7-minute 
rounds, and we will see how far we go. But certainly I have 
asked the FBI Director, Mr. Mueller, to come back at a later 
time when we can discuss the FISA issues, which are among the 
most important issues that this committee is concerned about. 
But we will certainly take that under consideration.
    Senator Schumer. Thank you, Mr. Chairman.
    Chairman Hatch. Let me just say I will put the rest of my 
remarks, my more extensive remarks in the record.
    [The prepared statement of Senator Hatch appears as a 
submission for the record.]
    Chairman Hatch. Senator Leahy?

  STATEMENT OF HON. PATRICK J. LEAHY, A U.S. SENATOR FROM THE 
                        STATE OF VERMONT

    Senator Leahy. Mr. Chairman, I am glad we are having the 
hearing. I do agree with Senator Schumer. We are going to want 
more from these gentlemen, and I know it is hard to accommodate 
schedules, but it is doable. And we should do it. We find how 
helpful this can be. As you know, last Congress we started the 
first comprehensive oversight of the FBI that we have had in 
decades. For years and years, long before Director Mueller, 
Director after Director felt that they did not have time. We 
found the time, and I think everybody benefited by it.
    I also want to applaud the CIA, the FBI, the other 
dedicated field operatives in Pakistan. I think all of us were 
relieved to see the capture of Khalid Shaikh Mohammed, the 
suspected mastermind behind the 9/11 attacks. The headlines are 
great. We can all announce it. It is the operatives, as all 
three of you know, in the field that are putting their lives on 
the line to make this work, and I wish there was a way that we 
could thank each one of them personally. Obviously, they don't 
want us to thank them by name or who they are, but it is 
wonderful work.
    Our oversight duties are at the core of our constitutional 
responsibilities to the American people. It is sometimes said 
that in war and in emergencies, democracy becomes the first 
casualty. Our Constitution, with its separation of powers, was 
designed to prevent that. The American people don't want to 
just feel safer. They want to be safer. And congressional 
oversight and the checks and balance can make that possible.
    Last week, Chairman Grassley and Chairman Specter and I 
released a detailed report based on the oversight that the 
Judiciary Committee conducted in the 107th Congress. We found, 
in that 2-year effort, a pressing need for further oversight 
and reform.
    I think Senator Specter and Senator Schumer both suggested 
that each of these witnesses appear in separate hearings. I 
think that is important. We don't want this just to be a photo 
op. We want it to be something that we really come out safer.
    I have spoken with Governor Ridge about the question of 
first responders when terrorists strike. The first responders 
are the first people we turn to. When somebody picks up their 
phone and calls 911, it is not going to ring at the desk of any 
one of you. It is going to be the local fire department, the 
local sheriffs, the local police, who receive the call. As we 
saw at the World Trade Center and at the Pentagon, these were 
the people that were the first responders. They have been asked 
to be the Federal Government's vanguard partners against 
terrorism, but it has become largely to this point an unfunded 
mandate on their communities and their States. It is 
frustrating to them and to those of us in Congress who have 
advocated on their behalf to encounter, first, a stone wall of 
silence about the administration's intention to honor the 
increasingly desperate requests for first-responder funding, 
and then we had a constant undercurrent of resistance to the 
meager help that we have begun to provide.
    I mention this because we can find billions and billions 
and billions and billions and billions of dollars to give to 
countries around the world if they would just say they will 
support us in a war against Iraq. It may well be important. We 
have a war here at home, and we ought to be able to find just 
as many billions of dollars to help those people, those 
Americans, who are fighting it.
    In the Appropriations Committee, we passed a bill, which, 
incidentally, had administration people watching every single 
line of it, yet it came through with a cut of $637 million to 
the Office of Domestic Preparedness. Training grants were cut 
by $50 million. Exercise grants were slashed by 50 percent. 
Spending for firefighters was cut by $150 million. In total, 
the bill cut nearly $1 billion in funding for Federal programs 
that directly assist first responders.
    I am glad to see the President, even though this was 
watched carefully by the White House, now says that first 
responders have been shortchanged, and I hope that we will get 
the money back in. We need money here at home. We need money 
for those whom we call upon to be our first responders.
    Attorney General Ashcroft, I am glad you are here, because 
last month a secret draft bill entitled ``The Domestic Security 
Enhancement Act of 2003'' was leaked to the press as a sequel 
to the USA PATRIOT Act. Now, this draft, we have asked about 
it. We have asked if it was there, and yet it is something that 
both Republicans and Democrats read about in the paper first. 
None of us saw it. In fact, a member of my staff called the 
Department just 5 days--just 5 days--before this bill was 
leaked to the press. She was told pointblank there was no bill 
in the works. Five days later, we have an 86-page bill, along 
with a 33-page sectional analysis. I know they are good down at 
the Department of Justice, but neither this administration nor 
anybody else could put together a 86-page bill of this 
complexity with a 33-page sectional analysis in 5 days. 
Somebody lied to a member of my staff. Not you, Mr. Attorney 
General, I want to hasten to add. But somebody who reports 
directly to you lied to her. And I think that this is not a 
good way to do things. If we are going to have such a piece of 
legislation and we are going to give it to all the newspapers 
first, we ought to at least be willing to tell the oversight 
committees that it is in the works.
    Attorney General Ashcroft. Mr. Chairman?
    Senator Leahy. Could I just finish?
    Attorney General Ashcroft. Mr. Chairman? Well, I would be 
very happy to respond.
    Chairman Hatch. Go ahead.
    Attorney General Ashcroft. The charge has been made that 
there are individuals in the Justice Department that are lying. 
And I want to be sure that I have time to respond to that, and 
I don't need to do it now. But I just want to make sure----
    Chairman Hatch. Certainly. We will certainly make sure 
that----
    Senator Leahy. I will venture that that is in my questions. 
I will make very clear what I said. I am not suggesting you, 
Mr. Attorney General, but when we ask people who are in the 
position where they are supposed to know, when they report 
directly to you, they tell us there is no such bill, 5 days 
later a very complex bill that has taken months to be drafted 
is leaked to the press, if they are not telling us an untruth, 
boy, they are way out of the loop--way, way out of the loop, in 
a position where they should not be.
    I think it shows a secretive process in producing this. We 
do not know whether we went too far or not far enough in 
authorizing new Government powers in the USA PATRIOT Act. It 
has been only a year since its passage. The administration has 
not responded to questions asked by the Republican chairman of 
the House Judiciary Committee, nor by members of this 
committee.
    But this leaked proposal would go much further in granting 
the Government more surveillance powers over American citizens, 
while drastically curtailing the ability of Congress, the 
courts, and the American people to find out what the Government 
is doing.
    This is one of the reasons why Congressman Dick Armey and I 
joined together to put sunset clauses in parts of the PATRIOT 
Act, because we couldn't get answers as to how it was going to 
be used.
    Whatever this new stealth bill is called, let's not call it 
USA PATRIOT II. It is not patriotic when it is done this 
secretively. If there is going to be a sequel, let's find out 
what it is going to be, and let's make sure we fully debate it. 
Good ideas will prevail in such a debate. Bad ideas will be 
rejected. That is the American way.
    I don't envy any one of you for what you have to do. You 
have among the most difficult jobs imaginable. But I would 
add--we have seen so many promises made of money for homeland 
security here in this country, and then the money doesn't show 
up in the budget. Please look at it again. If we can promise 
$10 billion to Turkey and tens of billions of dollars to other 
countries in the Gulf region to back us on the war, we ought to 
be able to find at least a small fraction of that to give to 
firefighters and police officers and medical personnel here in 
America who have to defend us.
    I will put my full statement in the record.
    [The prepared statement of Senator Leahy appears as a 
submission for the record.]
    Chairman Hatch. If I could just make one comment, the money 
was not appropriated until 3 weeks ago. So it is pretty hard to 
criticize----
    Senator Leahy. What I was saying was the fact that I agreed 
with President Bush who said that the appropriation bills that 
came out had less money than should be in there. The concern I 
have, however, is that the White House scrubbed every single 
line of that bill when it was coming out, and then they said--
after there had been so much criticism of adequate money not 
being in there, that is when they said there should be more.
    Chairman Hatch. Well, that is fine, but I just want to 
observe that we had almost 2 years since 9/11 to have 
appropriations that would have gotten these people going a lot 
faster than they are. But about 3 weeks ago, we finally were 
able to get that done. I think we have got to be careful how we 
couch some of our comments.
    But let's turn to Senator Ashcroft--General Ashcroft, and 
then we will turn to Secretary Ridge and then finally Mr. 
Mueller.

     STATEMENT OF HON. JOHN D. ASHCROFT, ATTORNEY GENERAL, 
            DEPARTMENT OF JUSTICE, WASHINGTON, D.C.

    Attorney General Ashcroft. Good morning, Chairman Hatch and 
Senator Leahy and members of the Judiciary Committee. I am 
honored to have this opportunity to again be with you. The 
United States of America is winning the war on terrorism with 
unrelenting focus and unprecedented cooperation.
    Let me quote Stephen Flatow, the father of a terrorist 
victim. I am quoting him. ``When you know the resources of your 
Government are committed to right the wrong committed against 
your daughter, that instills you with a sense of awe. As a 
father, you can't ask for anything more.''
    Stephen Flatow's daughter, Alisa, was a 20-year-old 
American student killed allegedly by the Palestinian Islamic 
Jihad when a terrorist drove a van of explosives into Alisa's 
bus.
    The resources of the U.S. Government are dedicated to 
righting the wrong against Alisa and the thousands of other 
American victims of terrorists. Most importantly, we are 
focused intensely on preventing such wrongs from destroying 
more innocent American lives.
    As I testified 8 months ago, America's defense--the defense 
of life and liberty--requires a new culture of prevention, 
nurtured by cooperation, built on coordination, and rooted in 
our constitutional liberties. The excessive constraints imposed 
in the late 1970's that erected barriers to cooperation between 
Government agencies, that segregated law enforcement and 
intelligence gathering, and prohibited information sharing, 
those barriers must be replaced systematically.
    Our survival and success in this long war on terrorism 
demands that we continuously adapt and improve our capabilities 
to protect Americans from a fanatical, ruthless enemy. I will 
continue to seek the assistance of Congress as we build a 
culture of prevention and ensure the resources of our 
Government can be dedicated to defending Americans.
    Let me share three reasons why the United States is winning 
this war and illustrate those points with some examples.
    First, the Central Intelligence Agency and the Federal 
Bureau of Investigation have set new standards for cooperation 
and coordination. The FBI's domestic intelligence operations 
are substantially strengthened by the CIA's information 
sharing, intelligence analysis, and operational coordination.
    For example, the capture of Khalid Shaikh Mohammed by 
Pakistani authorities, in coordination with the CIA, is a 
severe blow to Al-Qaeda that could destabilize their terrorist 
network worldwide. Khalid Shaikh Mohammed, the ``brain,'' is 
the Al-Qaeda ``mastermind'' of the September 11th attacks and 
Osama bin Laden's senior terrorist attack planner. Next to bin 
Laden, Khalid Shaikh Mohammed was the FBI's Most Wanted 
Terrorist.
    May I be clear here. The Department of Justice's overriding 
priority is preventing future terrorism, not just prosecuting 
past crime. Khalid Shaikh Mohammed's capture is first and 
foremost an intelligence opportunity to prevent new terrorist 
attacks from killing more innocent Americans.
    Today, the world's premier intelligence agencies, the CIA 
and FBI, are moving rapidly to exploit that intelligence 
opportunity. The CIA and FBI are cooperating thoroughly to 
share information from ``the capture,'' analyze that 
intelligence, and coordinate followup operations. And when I 
say today, I don't just mean today. I mean from the instant the 
opportunity matured in the capture. I know my phone was ringing 
at 1:30 in the morning Sunday morning with the request for 
consultation in regard to our exploitation of this opportunity. 
Under our new standard of FBI-CIA cooperation and coordination, 
Khalid Shaikh Mohammed's capture means the FBI can better 
prevent terrorism and save American lives.
    Second, the new FBI, America's domestic counterterrorism 
force, integrates fully intelligence and law enforcement 
capabilities to protect American lives. Today we have unsealed 
charges against two Yemeni citizens, Mohammed Ali Hasan Al-
Moayad and Mohshen Yahya Zayed, the result of an extensive FBI 
undercover operation. They are charged with conspiring to 
provide material support to Al-Qaeda and Hamas terrorists 
through Moayad's worldwide fund-raising operation. As the 
complaint alleges, the FBI undercover operation developed 
information that Al-Moayad personally handed Osama bin Laden 
$20 million from his terrorist fund-raising network.
    As set forth in the complaint, in November of 2001, the 
FBI's International Terrorism squad began working with a 
confidential informant who had known Al-Moayad for over 6 
years. According to the complaint, during several meetings with 
the FBI informant, Al-Moayad boasted ``jihad'' was his field 
and trumpeted his involvement in providing money, recruits, and 
supplies to Al-Qaeda, Hamas, and other terrorist groups, and he 
said he received money for jihad from collections at the Al 
Farouq mosque in Brooklyn. Al-Moayad also claimed to be Osama 
bin Laden's spiritual adviser.
    On January 7, 2003, Al-Moayad and Zayed flew from Yemen to 
Frankfurt, Germany, to meet with the FBI informant. According 
to the Government's complaint, Al-Moayad allegedly went to the 
meetings intending to obtain $2 million from a terrorist 
sympathizer who wanted to fund Al-Qaeda and Hamas.
    Again, the complaint details that at meetings with FBI 
informants in Frankfurt last month, Al-Moayad confirmed that 
the $2 million contribution would be used to support the 
mujahideen fighters of Al-Qaeda and Hamas. Zayed even ``swore 
to Allah'' that Zayed would get the money to Al-Qaeda and Hamas 
if anything happened to Al-Moayad.
    This extensive FBI counterterrorism operation blended human 
intelligence sources, advanced electronic surveillance, deep 
undercover operations, terrorist financing savvy, and criminal 
subpoenas and search warrants--with seamless law enforcement 
and intelligence cooperation added to those components. We find 
ourselves in a position to unseal that complaint today.
    The breadth and talent of the team fielded in this case 
literally spanned the globe--from New York City police to 
prosecutors in Frankfurt, Germany. This is the new FBI, focused 
on preventing terrorism, integrating intelligence and law 
enforcement, and delivering results. Director Mueller and FBI 
agents around the world have transformed their intelligence and 
counterterrorism operations to achieve this prevention mission. 
Their results make Americans safer and bring justice to the 
full network of terror, often in ways that the public does not 
see and that cannot be disclosed.
    Third, the Justice Department is prosecuting the war on 
terrorism by integrating our law enforcement and intelligence 
capabilities as authorized under the PATRIOT Act. The 
Department recently indicted Sami Al-Arian and seven co-
conspirators, several of whom were leaders of the Palestinian 
Islamic Jihad. The indictment details that Al-Arian served as 
the secretary of the Palestinian Islamic Jihad's governing 
council called the ``Shura Council.'' He was also identified as 
the senior North American representative of the Palestinian 
Islamic Jihad.
    As the allegations in the indictment detail, the 
Palestinian Islamic Jihad is responsible for the murder of over 
100 innocent people, including 20-year-old American student 
Alisa Flatow, whose father I quoted at the beginning of my 
testimony.
    Seized items described in the indictment include:
    A fax to Al-Arian and several associates on April 9, 1995, 
the day Alisa Flatow was killed. The fax announced the death of 
Khalid Al Khatib, the Palestinian Islamic Jihad killer who 
carried out the suicide bombing that killed Alisa.
    Also seized and described in the indictment, the wills of 
suicide bombers in the computer files of Al-Arian's purported 
charitable organization; and also seized, a fax containing the 
names of Palestinian Islamic Jihad suicide bombers killed and 
the names and account numbers of those who were to receive 
money on their behalf, their having committed suicide, money to 
come from the Palestinian Islamic Jihad.
    Yet, prior to the passage of the PATRIOT Act, the 
prosecutors in this case did not have the ability to 
participate fully in this investigation that ultimately led to 
RICO and material support charges against Al-Arian and his 
associates.
    Today, Americans are safer because we have transformed the 
rules of engagement for investigating and prosecuting suspected 
terrorists within our borders.
    First, and the Congress to be commended for its passage, 
the passage of the PATRIOT Act in October 2001 allowed for 
information sharing between law enforcement and intelligence 
and allowed us to implement our new FISA guidelines;
    Second, on November 18, 2002, the Foreign Intelligence 
Surveillance Court of Review reversed the district level FISA 
court and upheld our new FISA guidelines for information 
sharing;
    Third, we have tasked the U.S. Attorney's Offices to review 
all intelligence material that may provide the basis for 
criminal charges against terrorists and terrorist financiers.
    As the FISA Court of Review noted--that is the appeals 
court of the FISA court, and it has only issued one opinion in 
its existence, and I quote: ``Effective counterintelligence 
requires the wholehearted cooperation of all the government's 
personnel who can be brought to the task.'' I am continuing to 
quote: ``A standard which punishes such cooperation could well 
be thought dangerous to national security.''
    This dangerous standard existed until we reformed the law. 
You helped in the PATRIOT Act. We rewrote the FISA procedures 
and directed prosecutors to change their practices. Senator 
Hatch, I want to thank you personally for your strong support 
and your leadership in eliminating this dangerous standard.
    I also would like to thank the American people for their 
continued role in protecting the country from terrorism. We 
have no suffered another major attack in this country, and it 
is to the credit of an alert, vigilant, and supportive public 
as well as thousands of unsung and dedicated public servants 
that Senator Leahy mentioned--they are to be commended and 
thanked--and some whose stories cannot be told as a result of 
national security concerns, many of whom I am privileged to 
work with on a daily basis, and they deserve my thanks and, I 
believe, the thanks of this Nation.
    Now I would like to turn to a brief overview of additional 
results of our integrated prevention strategy.
    First, we are gathering and cultivating detailed 
intelligence on terrorism in the United States: hundreds and 
hundreds of suspected terrorists have been identified and 
tracked throughout the U.S.; our human sources of intelligence 
have doubled; our counterterrorism investigations have doubled 
in 1 year; 18,000 subpoenas and search warrants have been 
issued; over 1,000 applications in 2002 were made to the FISA 
court targeting terrorists, spies, and foreign powers who 
threaten our security, including 170 emergency FISAs.
    Second, we are arresting and detaining potential terrorist 
threats: four alleged terrorist cells in Buffalo, Detroit, 
Seattle, and Portland broken up; 211 criminal charges brought 
to date; 108 convictions or guilty pleas to date, including 
those of shoe-bomber Richard Reid, ``American Taliban'' John 
Walker Lindh, and one member of the Buffalo cell; 478 
deportations linked to the September 11th investigation.
    And we are dismantling the terrorist financial network: 36 
designated terrorist organization; $124 million in assets 
frozen and over 600 accounts frozen around the world; 70 
investigations into terrorist financing with 23 convictions or 
guilty pleas to date.
    Fourth, we are disrupting potential terrorist travel: more 
than 50 major airport sweeps in Operation Tarmac with more than 
1,200 arrests for ID and document fraud and other crimes; nine 
major alien smuggling networks disrupted; hundreds of 
terrorists and criminals stopped through the National Entry-
Exit Registration System, NSEERs--a mandate of the Congress, I 
might add, which we are now fulfilling--including 8 suspected 
terrorists, with at least one known member of Al-Qaeda 
apprehended as a result of that effort; 551 aliens stopped at 
the border who were wanted criminals, had committed past 
felonies or violated other laws; 46 felons identified through 
domestic enrollment--the special registration--who were in the 
country illegally, including cocaine traffickers, child 
molesters, and individuals convicted of assault with a deadly 
weapon.
    Fifth, we are building our long-term counterterrorism 
capacity: a 270-percent increase in counterterrorism funds, 
thanks to the appropriations of the Congress; over 1,000 new 
and redirected FBI agents dedicated to counterterrorism and 
counterintelligence; 250 new Assistant U.S. Attorneys; 56 Joint 
Terrorism Task Forces; a 337-percent increase in Joint 
Terrorism Task Force staffing; and Fly Away Expert Teams for 
rapid deployment to hot spots worldwide.
    As I said, these are just some of our actions to date. 
Today, Director Mueller will be providing you with details 
regarding the fundamental reforms at the FBI that make 
terrorism prevention the Bureau's No. 1 priority.
    Finally, I would like to point out that throughout this 
process, the Department of Justice has acted thoughtfully, 
carefully, and within the Constitution of the United States, 
that framework for freedom. Time and again, the actions on the 
war on terrorism have been subjected to thorough judicial 
review, and time and again, the Department has successfully 
defended legal challenges, including: detaining enemy 
combatants--sustained; detaining the enemy at Guantanamo Bay--
sustained; sharing FISA information--sustained; withholding the 
names of sensitive immigration detainees--sustained; freezing 
assets of purported charities that fund terrorists--sustained.
    The President's powers to protect the American people are 
rooted in the Constitution and they are sustained in our 
courts. The actions we take against the terrorist threat will 
always be rooted in the Constitution while accounting for the 
adapting and changing methods of our terrorist enemies.
    As the President stated in a recent visit to the FBI, 
``There is no such thing as perfect security against a hidden 
network of cold-blooded killers. Yet, abroad and at home, we 
are not going to wait until the worst dangers are upon us.'' We 
will work.
    Our strategy and tactics are working. Listen to the 
recorded conversation between charged terrorist cell member, 
Jeffrey Battle, and an FBI informant on May 8, 2002. This is 
instructive about whether or not what we do and what you do 
really makes a difference. Battle is part of the alleged 
Portland, Oregon, cell.
    In his conversation unsealed in court, Battle explained why 
his enterprise was not as organized as he thought it should 
have been, and now I quote: ``...because we don't have 
support,'' Battle says. ``Everybody's scared to give up any 
money to help us. You know what I'm saying? Because that law 
that Bush wrote about, you know, supporting terrorism, 
whatever, the whole thing...Everybody's scared...He made a law 
that says for instance I left out of the country and I fought, 
right, but I wasn't able to afford a ticket but you bought my 
plane ticket, you gave me the money to do it...By me going and 
me fighting and doing that they can, by this new law, they can 
come and take you and put you in jail.''
    Very frankly, I was stunned at the understanding of those 
involved in terror of the impact of the law passed by the U.S. 
House of Representatives and Senate and sent to the President 
for his signature. They are getting the message: We are 
gathering and cultivating detailed intelligence on terrorism in 
the United States. They understand our effort. We are arresting 
and detaining potential terrorist threats. We are dismantling 
the terrorist financial network, and we are disrupting 
potential terrorist travel, and we are building our long-term 
counterterrorism capacity. We are winning the war on terrorism.
    I thank you for this opportunity to be with you, and I will 
be happy to respond to questions.
    [The prepared statement of Attorney General Ashcroft 
appears as a submission for the record.]
    Chairman Hatch. Thank you, General.
    We will turn to you, Secretary Ridge.

  STATEMENT OF HON. THOMAS J. RIDGE, SECRETARY, DEPARTMENT OF 
              HOMELAND SECURITY, WASHINGTON, D.C.

    Secretary Ridge. Mr. Chairman, Senator Leahy, and 
distinguished members of the committee, it is a distinct 
pleasure and a privilege to appear before you today in what is, 
as Senator Hatch has noted, my first opportunity to testify 
before the Congress as the Secretary of Homeland Security. I 
also appreciate the opportunity to appear with my colleagues, 
Attorney General John Ashcroft and FBI Director Bob Mueller, 
two extremely distinguished public servants and two of my 
closest allies in the ongoing campaign to enhance the safety 
and security of our American homeland. Thank you for this 
opportunity to highlight the activities and the accomplishments 
and the work of the Department of Homeland Security.
    Last Saturday, the 1st of March 2003, we integrated nearly 
two dozen agencies or entities into the Department of Homeland 
Security. With them came some 180,000 dedicated Federal workers 
who have all been serving their country with distinction from 
various departments within the Government. This momentous 
milestone means that there is now real muscle on the skeleton 
of a Department that was created back in January. With these 
agencies and these people come tremendous capabilities, as well 
as challenges.
    In order to better protect our borders, Under Secretary Asa 
Hutchinson has launched a well-conceived and much needed plan 
to combine the forces of the Customs Service, the Immigration 
and Naturalization Service, the agricultural inspection 
functions of the Animal and Plant Health Inspection Service, 
and the Federal Protective Service. His initiative, based on 
the vision articulated in the Homeland Security Act, combines 
the four entities into two: a Bureau of Customs and Border 
Protection, and a Bureau of Immigration and Customs 
Enforcement. This is an important step that will leverage the 
operational expertise of all those involved and move us toward 
a future where there will be one organizational face at our 
borders rather than several.
    This realignment of resources has already demonstrated its 
benefit. Last week, customs, immigration, and agriculture 
border inspectors reported to three separate port directors who 
in turn reported up three separate chains of command to three 
separate Cabinet Secretaries. Today, these inspectors now 
report to one interim port director, who reports through a 
unified chain of command to one Cabinet Secretary.
    Two weeks ago, we rolled out the Department's Citizen 
Preparedness Program. The public response has been 
overwhelming, with our ready.gov website receiving more than 
2.5 million visits per day since becoming operational. This 
program provides immediate and practical guidance to the 
millions of Americans who, to their credit, know that 
preparation makes sense and saves lives.
    As of the 1st of March, we have entered into a number of 
Memoranda of Understanding that consolidate previously 
dispersed national incident support functions into the new 
Department of Homeland Security. We have taken responsibility 
and control of the Domestic Emergency Support Team, the 
Strategic National stockpile, and America's National Disaster 
Medical System and Teams. Restructuring these authorities gives 
the Department the ability to manage major domestic incidents 
by establishing, again, a single, comprehensive, and coherent 
national incident management system.
    Also ahead of us are other challenges as well as 
opportunities to work more efficiently and effectively. We are 
making good progress on a regional structure that will help to 
enhance overall accountability and efficiency. That plan is 
still under development. When we have a better idea of how the 
regions will be organized, we look forward to presenting the 
final plan to Congress.
    We continue to build and refine our partnerships with other 
Federal departments, State and local governments, and the 
private sector. There is no Federal plan that will ensure our 
homeland security. It must be a national plan that involves all 
Americans. And it must go beyond even this, working closely 
with our neighbors and allies overseas to build an 
international plan and an international response. We are 
working to build such a plan.
    While this work goes on, we must continue to carefully tend 
to all the critical missions of the Department of Homeland 
Security, especially those that are not directly security-
related.
    We have the support of our partners, like the gentlemen and 
colleagues who join me here today, and we have the support of 
Congress, which has been critical in getting us to this point.
    I certainly appreciate the opportunity to be here today to 
testify and to talk about the work we are doing to make America 
a safer home for us, for our children, and for generations to 
come. I thank you for inviting me to appear before you today, 
and I look forward to answering your questions.
    [The prepared statement of Secretary Ridge appears as a 
submission for the record.]
    Chairman Hatch. Thank you, Mr. Secretary.
    We will turn to the FBI Director, Mr. Mueller, at this 
point.

  STATEMENT OF HON. ROBERT S. MUELLER III, DIRECTOR, FEDERAL 
  BUREAU OF INVESTIGATION, DEPARTMENT OF JUSTICE, WASHINGTON, 
                              D.C.

    Director Mueller. Thank you, Chairman Hatch and Senator 
Leahy and members of the committee. President Bush recently re-
emphasized to all FBI employees that the FBI has no greater 
priority than preventing terrorist attacks against the United 
States. And since the attacks of September 11th, the FBI has 
embraced this challenge and transformed itself to address the 
current threat facing this country.
    Before I outline for the committee the advances the FBI has 
made in the past 18 months, I do want to assure the American 
people and the members of this committee, particularly the 
members of this committee who played such a vital role in 
enhancing the FBI's counterterrorism efforts through the USA 
PATRIOT ACT--I want to assure you that the FBI is committed to 
carrying out its mission in accordance with the protections 
provided by the Constitution. Every FBI agent is trained to 
recognize that the responsibility to respect and protect the 
law is the basis for their authority to enforce it. Respect for 
constitutional liberties is not optional. It is mandatory. And 
the FBI could not be effective and would not exist without it.
    The FBI's efforts to identify and dismantle terrorist 
networks have yielded major successes over the past 18 months. 
We have charged over 200 suspected terrorists with crimes, half 
of whom have been convicted to date, and the rest are awaiting 
trial. And, moreover, our efforts have damaged terrorist 
networks throughout the United States and overseas.
    Last month, I testified before the Senate Select Committee 
on Intelligence that the Al-Qaeda network will remain for the 
foreseeable future the most immediate and serious threat facing 
this country. And while this remains true, the arrest of Khalid 
Shaikh Mohammed in Pakistan only 3 days ago is a significant 
blow to the leadership of the Al-Qaeda network. While Osama bin 
Laden maintains worldwide name recognition as the leader of Al-
Qaeda, Khalid Shaikh Mohammed is the operational or was the 
operational mastermind. His terrorist plots--believed to 
include the 1993 World Trade Center, the USS Cole bomb 
delivered by boat, and the September 11th terrorist attacks 
delivered by air--have resulted in the death of thousands of 
innocent people.
    I would like to congratulate and thank our Pakistani 
partners on this major victory in the war on terrorism, as well 
as thanking our brethren in the intelligence community. But, 
most particularly, I want to thank the Pakistanis for their 
efforts that led to the capture of Khalid Shaikh Mohammed. I 
can assure you both here and throughout the country that any 
and all resources of the FBI will be brought to bear to exploit 
the intelligence information that may become available as a 
result of this arrest.
    We must not lose sight, however, of the fact that there are 
many groups committed to international terrorism which offer 
Al-Qaeda varying degrees of support. Nor will we discount the 
threat from single individuals sympathetic or affiliated with 
Al-Qaeda, acting without external support or surrounding 
conspiracies.
    And despite the arrest of Khalid Shaikh Mohammed, Al-Qaeda 
and other terrorist networks are adept at defending their 
organizations from U.S. and international law enforcement 
efforts. As these terrorist organizations evolve and change 
their tactics, we, too, must evolve. Accordingly, over the past 
18 months, we have brought momentous changes to the FBI, 
including the incorporate of an enhanced intelligence function. 
These changes will better enable us to defend against this 
terrorist threat.
    Mr. Chairman, to effectively wage this war against terror, 
we have augmented our counterterrorism resources and are making 
organizational enhancements to focus our priorities. I would 
like to review some of those changes with the committee, 
beginning with the FBI's analytical program.
    To give new focus to analysis, last year I created an 
Analysis Branch in the Counterterrorism Division and assigned 
it the mission of producing strategic assessments of the 
terrorist threat to the United States. To date, the Analysis 
Branch has produced nearly 30 in-depth analytical assessments.
    Since 9/11, the FBI has increased the number of 
counterterrorism analysts by 61 percent. And through fiscal 
year 2004, our proposed increase will result in the quadrupling 
of the number of analysts beyond that or those that we had 
prior to September 11th. Recognizing in the short term that we 
could not get to where we needed to be overnight, Director 
Tenet detailed 25 of his analysts to the FBI to provide an 
immediate infusion of expertise into our program while our 
hiring initiative was underway.
    We have also implemented a number of initiatives aimed at 
enhancing training for our analytic work force, including the 
creation of the College of Analytical Studies, which, in 
conjunction with the CIA, has begun training our new 
intelligence analysts.
    Now, these improvements to our analytic program had to be 
made as quickly as possible to address our immediate needs. I 
now want to ensure our ability to collect and analyze this 
intelligence for the long term.
    The centerpiece of this effort is the establishment of an 
Executive Assistant Director for Intelligence who will have 
direct authority and responsibility for the FBI's national 
intelligence program. Specifically, this individual will be 
responsible for ensuring that the FBI has the optimum 
strategies, structure, and policies in place first and foremost 
for our counterterrorism mission.
    Furthermore, intelligence units staffed with reports 
officers will be established in every field office and will 
function under the authority of the Executive Assistant 
Director for Intelligence. And these reports officers will be 
responsible for identifying, extracting, and collecting 
intelligence from FBI investigations and sharing that 
information throughout the FBI and throughout the other law 
enforcement and intelligence entities.
    We have established since September 11th a number of 
specialized counterterrorism units, including what is called CT 
Watch, a 24-hour counterterrorism watch center; a 
Communications Analysis Section; a Document Exploitation Unit; 
and enhanced the Special Technologies and Applications Unit to 
making it a section; and, finally, we have also set up a 
Terrorism Financing Operations Section. All of those entities 
assist us in addressing the counterterrorism mission.
    Let me turn for a moment to information sharing and our 
operational coordination initiatives. If we are to defeat 
terrorists and their supporters, a wide range of organizations 
must work together. And I am committed to the closest possible 
coordination with the intelligence community and other Federal 
Government agencies and our essential partners at the State and 
local level.
    We are taking steps to enhance our cooperation with 
Federal, State, and local agencies by expanding the number of 
Joint Terrorism Task Forces. Where we had 35 prior to September 
11th, we now have 66 as of today. These task forces partner FBI 
personnel with hundreds of investigations from various Federal, 
State, and local agencies in field offices across the country 
and are important for multipliers aiding our fight against 
terrorism.
    We established here at headquarters the National Joint 
Terrorism Task Force staffed by representatives from 30 
different Federal, State, and local agencies.
    And to strengthen our cooperation with State and local law 
enforcement, we are introducing counterterrorism training on a 
national level. And we are providing specialized 
counterterrorism training to in excess of 200 agents and 
training technicians from every field office in the country so 
that they in transparency can train the estimated 27,000 
Federal, State, and local law enforcement officers, hopefully 
this year, training them in basic counterterrorism 
investigations.
    We also established an Office of Law Enforcement 
Coordination. This was created to enhance the ability of the 
FBI to forge cooperation and substantive relationships with all 
of our State and local law enforcement counterparts. I brought 
in a former chief of police to head up this particular office.
    Let me turn for a second to the reforms in the FISA 
process. Whatever problems--and there were problems in the FISA 
process prior to September 11th. We believe we have taken 
substantial steps to address those problems. We have created a 
FISA Unit responsible for ensuring that FISA applications move 
expeditiously through the FISA process. This unit is developing 
and implementing an automated FISA management system, and it 
will oversee the expeditious distribution of FISA court orders 
and warrants to the appropriate field offices, 
telecommunications carriers, Internet service providers, and 
other specified persons.
    The FBI's National Security Law Unit and the Department's 
Office of Intelligence Policy and Review are collaborating on a 
number of procedural and legal initiatives that are 
streamlining and simplifying the process by which FBI agents 
obtain FISA authority.
    Since September 11th, attorneys from the National Security 
Law Unit have conducted approximately 70 training sessions on 
FISA-related issues. These sessions, which have been held at 
Quantico, at headquarters, and in the field, have been attended 
by agents and supervisors in groups as small as 20 and as large 
as several hundred. In addition, we are in the process of 
implementing the Deputy Attorney General's mandate to establish 
a comprehensive training curriculum on FISA and related matters 
for all Justice Department lawyers and FBI agents who work on 
foreign intelligence and counterintelligence investigations.
    Since September 11th, we have made full and very productive 
use of the emergency FISA process whereby we can often 
establish electronic surveillance within hours of establishing 
probable cause that an individual is an appropriate FISA 
subject. Thanks to the efforts of our agents and the attorneys 
in the National Security Law Unit and the Office of 
Intelligence Policy and Review, in the 1-year period from 
September 11th to September 19, 2002, we have obtained more 
than double the number of emergency FISAs as compared to the 
total number of emergency FISAs we obtained in the prior 23-
year history of the FISA statute.
    Let me spend a moment, if I might, Mr. Chairman, on 
information technology. We are also swiftly addressing the 
shortcomings of the Bureau's information technology. Over the 
years, we have failed to develop a sufficient capacity to 
collect, store, search, retrieve, and, most particularly, 
analyze and share information. Mr. Chairman, you are aware of 
the problems the FBI has experienced because of outdated 
technology. Thanks to support from Congress, the FBI has 
embarked on a comprehensive overhaul and revitalization of our 
information technology infrastructure. That process is well 
under way, but our technological problems are complex and they 
will be remedied only through careful and methodical planning 
and implementation. We have made substantial progress in the 
past 18 months, and we have laid the groundwork for significant 
progress in the months and the years ahead. And I would be 
happy to explore that in more detail in response to questions.
    Before I conclude, Mr. Chairman, I would like to take this 
opportunity to pledge our support for the Terrorist Threat 
Integration Center. As you know, this center will merge and 
analyze terrorist-related information collected domestically 
and abroad. This initiative will be crucially important to the 
success of our mission in the FBI, and it will take us to the 
next level in being able to prevent another terrorist attack on 
our Nation.
    I have provided additional details in my prepared statement 
and would be happy to respond to any questions the committee 
may have on the FBI's role in the Terrorist Threat Integration 
Center.
    Mr. Chairman, I have outlined for you just a few of the 
significant enhancements the FBI has implemented since the 
terrorist attacks of 2001. We have a far more in-depth briefing 
on these initiatives and others, as well as an online 
demonstration of our new analytical tools, that is available at 
FBI headquarters to all members of the committee. And I invite 
each of you to come to headquarters for this presentation at 
your earliest convenience.
    Mr. Chairman, let me conclude by saying that the nature of 
the threats facing the United States homeland continues to 
evolve and so does the FBI. We have made significant strides 
toward enhancing our operations, and I appreciate the 
opportunity to explain some of them to the committee today.
    While we have come a long way in the past 18 months, we 
still have a long way yet to go. I look forward to working with 
the committee in the months ahead to further enhance our 
ability to combat terrorism and to ensure the strongest, most 
effective FBI possible?
    Thank you, Mr. Chairman, for the opportunity to make this 
statement today, and let me finally say that I look forward to 
whatever suggestions the committee may have. We certainly do 
not have a monopoly on how things can be improved, and we look 
forward to working with this committee to further improve the 
Federal Bureau of Investigation.
    [The prepared statement of Mr. Mueller appears as a 
submission for the record.]
    Chairman Hatch. Well, thank you. I think all three of your 
statements have been very informative, and I think the public 
at large will benefit greatly from hearing what you have had to 
say. In particular, Mr. Mueller, I am appreciative of your 
humble approach to things, because you have always said, ``Help 
me to do my job better, if you can. We are open. We will 
listen.'' And I personally appreciate that, and I have 
appreciated the service you have given.
    I appreciate you other two greater leaders as well. You 
have had a tiger by the tail, Senator Ashcroft, and we 
appreciate it. And now there is no question about the tigers 
you have by the tail, is all I can say. So you have a rough 
time.
    What we are going to do is we are going to go to Senator 
Kyl first, then to the ranking member, and then I am going to 
go to Senator Specter, and I will give him my time and he will 
take his time for 14 minutes, and then I will come to two, if 
they are available, over the Democrat side for 14 minutes, 7 
minutes each.
    Now, given the interest in this hearing, I am going to ask, 
out of consideration for other members of the committee, that 
each member stay within the 7-minute allocation of time for 
questioning. If we do, then every member on the committee can 
get at least one round of questioning, and possibly more. Each 
minute any of you go over takes time from your fellow Senators. 
So I would like us all to be as courteous as we can to our 
fellow Senators by staying within that 7-minute time limit. So 
this little instrument here will tell me when 7 minutes is up. 
That one there, when the red light comes on, I hope you will 
stop because I will probably interrupt you so that we can give 
everybody a chance.
    We will turn to you, Senator Kyl, first and----
    Audience Participant. Mr. Chairman----
    Chairman Hatch. We are not going to have statements----
    Audience Participant. On the matter of judiciary and 
courts, judges are used as a terrorist organization against us, 
not today, not yesterday, but 50 years, and with both 
administrations, Democratic and Republican Parties, and who is 
going to investigate this matter?
    Chairman Hatch. All right. We are going to have to--we will 
take that into consideration. We are going to have to move 
ahead with the committee hearing. I don't want any further 
outbursts by anybody, and if there are, we will have you 
removed from the room. But if you will just relax and sit back, 
we will keep you in the room. If not, we will have to have you 
removed.
    Senator Kyl?

  STATEMENT OF HON. JON KYL, A U.S. SENATOR FROM THE STATE OF 
                            ARIZONA

    Senator Kyl. Thank you very much, Mr. Chairman, and I very 
much appreciate your willingness to defer to me. As it 
sometimes occurs, we have commitments that require our presence 
elsewhere, and I must leave to focus on an issue that is of 
concern, especially, Secretary Ridge, to you, and that is the 
illegal immigration which results in huge costs both to our law 
enforcement community, State law enforcement community, and to, 
as it turns out, our hospitals which have to care for illegal 
immigrants and bear a cost of about $1.5 billion a year. That 
will take me away in just a moment, so I appreciate the Chair 
deferring to me.
    It frequently makes news when someone criticizes the law 
enforcement community when there are failures, and, of course, 
we can't stop every attack. But it is always good to hear good 
news, and the exception to this, with the recent capture of 
Khalid Shaikh Mohammed, and General Ashcroft, your testimony 
containing a lengthy and impressive review of successes of law 
enforcement is welcome. And I commend all three of you for the 
efforts that you have engaged in and hope that you will convey 
to those who work with you our appreciation.
    Director Mueller, my first question is to you. There are a 
number of terrorist attacks that have been averted or prevented 
as a result of the cooperation of law enforcement agencies and 
our intelligence work, both here and abroad. Could you just 
give us an idea of the number of attacks that have been averted 
that we can't talk about in terms of where they occurred, what 
was happening, and so on? But it is important at least to know 
that we have been successful.
    Mr. Mueller. Senator, several months ago we tried to add up 
the number of terrorist attacks around the world that may have 
been averted by not only the efforts of the FBI and the CIA, 
but also the efforts of our counterparts overseas. And when we 
did so, it was well in excess--it was in excess of 100. We 
think by this time it is probably well in excess of 100 when 
you take into account arrests that have taken place, for 
instance, in Great Britain with regard to risin in the last few 
months, in Spain. We also are looking with some anticipation to 
determine what information we may obtain from whatever was 
seized with Khalid Shaikh Mohammed in hopes of exploiting those 
materials with the expectation that we will be able to avert 
additional attacks with that exploitation.
    Senator Kyl. The next question is both to Attorney General 
Ashcroft and to Director Mueller. It has to do with the Foreign 
Intelligence Surveillance Act which prevents the FBI from 
conducting surveillance unless there is probable cause to 
believe that the suspect is either a foreign power or an agent 
of a foreign power, and as a result the FBI cannot get an order 
to surveil individual foreign terrorists, notwithstanding the 
fact that recent intelligence reports cite increased risk of 
lone wolf attacks.
    And Senator Schumer and I have a bill which will allow the 
FBI to monitor the lone wolf terrorist under FISA even if not 
linked to a foreign power, so long as the FBI has probable 
cause that the person is engaged in or preparing for 
international terrorism.
    This question is for both of you. FISA was originally 
passed in order to deal with Soviet spies in the rather 
hierarchical kind of terror groups that existed then like the 
Red Army faction and so on, whereas today we are dealing with a 
movement of Islamic terrorism that sometimes does not involve a 
membership card in a particular organization. Could both of you 
confirm the administration's position on the bill that Senator 
Schumer and I have which permits the surveillance of even the 
lone wolf terrorist? General Ashcroft?
    Attorney General Ashcroft. Well, first of all the 
administration believe that would be a step in the right 
direction. It is a good bill. It is what ought to be done. 
Right now we have the ability, if there are two or more 
involved, so the change in the law is not that great. But we do 
know that single, lone wolf terrorists act and can act in ways 
that are very, very damaging. Without referring to any case, 
for example, someone who decided on his or her own motive or 
involvement to begin an assault on a population with a weapon 
to disrupt say a train station is someone that could cause 
serious damage while acting alone. It is our judgment that the 
requirement that the person be involved in international terror 
is enough of a predicate to be a responsible basis for 
involving us in the kind of coverage that is available, and we 
believe the proposal is a good one and should be enacted.
    Senator Kyl. And, Director Mueller, you are also concerned 
about the lone wolf terrorist?
    Mr. Mueller. I support, quite obviously, what the Attorney 
General said in terms of the utility of this change in the 
bill. We have had problems in the past in attempting to 
identify sufficient information to link an individual to an 
agent of a foreign power, a particular terrorist group. And 
this would overcome some of those hurdles that we have had in 
the past.
    We have in our threat analyses, our summary of threats 
facing the United States, identified the lone wolf as an 
individual who we cannot dismiss, and one that we would have to 
look out for, particularly when we know that Al-Qaeda is a very 
loosely integrated organization, and quite often you cannot 
until some time down the road identify particular ties to that 
particular organization.
    Senator Kyl. Thank you for that.
    Mr. Chairman, I think that the yellow light suggests that I 
am just about out of time, so could I request that the other 
three questions that I have for our panelists be accepted for 
the record, and I again very much appreciate your willingness 
to defer to me at this time.
    And again, I thank all of you, and I hope that you will 
express to your colleagues, the many people who work for you 
and for us, that we appreciate very much their hard work in 
protecting us. Thank you.
    Chairman Hatch. Well, thank you, Senator.
    We will turn to Senator Leahy.
    Senator Leahy. Thank you, Mr. Chairman. Before I start I 
might note that sometimes happens in some of these hearings, 
there are interruptions. I just want to commend you for the way 
you handled the most recent one, being respectful to those who 
are guests here, but also being very respectful to what has to 
be done in a hearing.
    Chairman Hatch. Thank you, Senator. Appreciate that.
    Senator Leahy. Governor Ridge, I mentioned earlier my 
concern about support, Federal support for State and local 
first responders. We have discussed this on other occasions. 
Before the National Governors Association President Bush, 
rather surprisingly, blamed the Republican controlled Congress 
for shortchanging the Homeland Security programs to guard 
against terrorism. He said he was disappointed that Congress 
did not respond to the $3-1/2 billion that we had asked for. Of 
course then the members of the President's own party came back 
and said that the White House was intimately involved in 
negotiating the details of the omnibus spending bill and had 
signed off on every cent in there.
    Be that as it may, it did cut a billion dollars off the 
Federal program. We now have State and local authorities 
asking--I mention this because today is town meeting day in 
Vermont. It is an amazing part of democracy. And last night in 
one town, Middlebury had theirs in the evening. The long-term 
moderator has now been elected Governor of our State; he was 
still there to be moderator. And was treated no differently 
than anybody else at the town meeting. It works.
    But they are asking on some of the first responder 
questions they are getting, do we cut the school budget? Do we 
cut the snow removal budget? What do we cut to pay for our new 
requirements? A lot of fire departments in Vermont, are telling 
me and I am sure they are in other states, they are having 
members being called up by the National Guard to go to the 
Middle East, and they want to know where the money is. So, the 
President will have an emergency supplemental, and there can be 
money in there for law enforcement agencies, fire departments, 
EMS units. Should he include at least $5 billion in that 
supplemental? I mean a lot of people in the Congress have asked 
for it. Senator Daschle has. I have. Others. Should he include 
$5 billion in there?
    Secretary Ridge. First of all, I would like to ask the 
Chairman if my entire text of my prior remarks could be 
included as part of the record? I edited.
    Chairman Hatch. Without objection, we will put the entire 
text in.
    Secretary Ridge. Thank you very much.
    Senator first of all, we have, with the support of 
Congress, appropriated $3.5 billion. While that did not meet 
the hopes and aspirations of a lot of people, it still is a 
substantial investment in first responder capacity. our job 
will be to get those dollars out the door as quickly as 
possible, hopefully beginning as early as the end of next week, 
the end of this week. Second, the President has said that we 
need to build this national capacity over a period of time. We 
are going to do that. The President has requested an additional 
$3.5 billion in the 2004 budget.
    I would say, in response to your question, that right now 
it is a little too early for me to determine what if anything 
we will ask for within the supplemental if it comes to the 
Hill. But I would say to the Senator that I hope, regardless of 
whether we ask for additional money in the supplemental or 
money in the 2004 budget, that we could provide the State and 
locals a little bit more flexibility than some of the 
earmarking would allow.
    One of the things the Department of Homeland Security is 
trying to do and to convince our colleagues in public service, 
the Governors and the mayors, is to develop local plans and 
statewide plans, and then allow us to fund those plans, so that 
they specifically earmark and delineate where those dollars are 
to go.
    Senator Leahy. Let me ask you this, and actually you would 
be a good one to know about the needs. The needs of 
Pennsylvania when you were Governor, are different than the 
needs of Missouri when General Ashcroft was Governor, or the 
State of Vermont or Utah or anywhere else. And you know you 
have to have some flexibility.
    Secretary Ridge. Correct.
    Senator Leahy. But if you had $5 billion, could you use it?
    Secretary Ridge. Well, I think if we have--any additional 
money could be used, to be determined. I would echo a hope and 
an aspiration that the 3.5 that we are going to get out the 
door as quickly as possible could be quickly joined by another 
3.5 in the President's 2004 budget, which would get us $7 
billion.
    Senator Leahy. Let me ask you this. We have authorized 
increases in Immigration personnel at our northern border. 
Before the September 11th attacks I think it suffered a lot of 
neglect. Now, we have a two-way thing on the Northern border. 
Canada is our largest trading partner, and a strong, good ally 
of the United States. We want to have easy movement back and 
forth. I live an hour from the Canadian border. I know how 
important it is both for commerce and for families--a lot of us 
have relatives in Canada--to be able to move back and forth 
easily. But we also know we need stronger border personnel. The 
Attorney General, the Director of the FBI, they are concerned 
about what might come across a border that historically has 
been a very open one. In today's Burlington Free Press in 
Vermont they talk about organized smuggling groups coming down 
in a low-flying helicopter. Our State's public safety 
commissioner says our border is not secure. Professional 
smugglers can be smuggling any type of contraband. We know what 
happened on our Southern border. Heavily armed Cuban commandoes 
came in flying the flag, and actually landed, pulled ashore and 
walked up and down the street, finding out who they could turn 
themselves in to.
    Will you assure me, as you have in the past, will you 
assure me that we will start working very hard on this? We have 
one of your three major INS facilities in Vermont. If that was 
attacked it could create all kinds of havoc throughout, havoc 
that would affect every aspect of law enforcement. Will you 
work with us to make sure that we get more security at those 
borders?
    Secretary Ridge. Senator, you certainly have that pledge. 
Frankly, we are grateful for the support. I believe it was your 
amendment to the PATRIOT Act that provided the designation for 
additional complement to be added to the border patrol in the 
north and further inspectors. I think we are about three-
quarters of the way there with the dollars we got in the 2003 
budget. We are also in the process of continuing to develop a 
21st century smart border agreement with our Canadian allies so 
that we can encourage and facilitate the flow of legitimate 
goods and people, but also use other means to apprehend and 
discourage the illegitimate flow of goods and people that we do 
not want into this country.
    So I think in the months and the years ahead, a combination 
of these good people, with the complement that you have 
authorized and supported, along with some new technology, we 
will do a much better job at facilitating that goal at our 
borders, both north and south.
    Senator Leahy. Thank you.
    Mr. Chairman, I will submit my other question for the 
record. I would hope the Chairman would work with me to make 
sure the questions are responded to.
    Chairman Hatch. I would be glad to do so, Senator.
    Senator Leahy. Thank you.
    Chairman Hatch. We turn to Senator Grassley now for 7 
minutes, and then to Senator Feinstein for 7 minutes, and then 
to Senator Specter.
    Senator Grassley. Thank you. I hope I can get to each one 
of you with one question and then submit the rest of the 
questions for answer in writing.
    First of all, I want to compliment the Chairman for holding 
an oversight hearing. I hope this is the first of many 
oversight hearings because I think oversight is very, very 
important.
    Secretary Ridge, I will start with you. As you know, I 
recently held a Finance Committee hearing on border security 
that revealed several serious problems. Two of those problems 
really stick out. The first problem was that undercover agents 
got into the country at ports of entry using really 
unsophisticated fake IDs and other phony documents. The second 
problem is enforcement on public lands at the borders. More 
than 40 percent of the Southern border is park land, and the 
Northern border has more than 500 miles of public land. About a 
quarter of a million illegal aliens cross the Southern border 
every year, but only a handful of park rangers are out there to 
stop them. Who knows how many terrorists could join the 
smugglers and immigrants to get into the country.
    The day of the hearing that I held, you made a comment on 
the news that these issues needed to be resolved and that you 
would work with me.
    So first I want to ask about the park lands at the borders. 
The National Park Service is just not equipped, staffed or 
trained to protect the borders enough. Security is a big, big 
priority right now with everybody. The Park Service needs the 
help of Homeland Security. You have got ports of entry pretty 
well secured, at least I hope you do, and I think that you are 
working hard in that direction. But what can your department do 
to help stem the flow of illegal aliens on the rural public 
lands along our borders?
    Secretary Ridge. Senator, the collaboration that has 
historically existed between the Border Patrol and other 
departments and units that come into the new Department of 
Homeland Security has been good. We believe, however, that our 
ability to reconfigure the border units, the border bureaus, 
one dealing with protection, the other dealing with 
enforcement, will give us some additional personnel that we can 
apply to the borders and to work with the Park Service to cover 
what heretofore has been uncovered or rarely covered territory.
    One of the meetings I have later on this week is with the 
Director of the Park Service. We recognize that there is a gap 
there, and it is our responsibility in the Department of 
Homeland Security to find ways to fill the gaps. One will be, 
obviously, more personnel, we believe through the 
reorganization that we are developing. But in time, we think 
detection technology should be deployed in some of these less 
inhabited or uninhabited areas.
    Senator Grassley. Thank you.
    Director Mueller, I know that you are working hard to 
transform the FBI. Unlike many of my colleagues floating new 
ideas, I still think that the FBI should be in charge of 
counterterrorism. What concerns me today is the FBI's internal 
cultural problems that you have heard me talk so much about. 
The FBI cannot reform, I think, unless these problems get 
fixed. These are the same issues that have stopped the FBI in 
the past from being effective in counterterrorism. You 
inherited many problems. You have an opportunity and, as I 
know, you feel a duty to fix them. The example of this that 
troubles me, there is just one example that troubles me right 
now, is your Assistant Director at OPR, Mr. Jordan, and Unit 
Chief John Roberts. As you know, I have been concerned that Bob 
Jordan retaliated against John Roberts after Mr. Roberts went 
on 60 Minutes to talk about longstanding problems, especially 
the double standard in discipline. You have told me that you 
will not allow retaliation, and I have your memo here from 
November 2001, that says exactly that. But I also happen to 
have with me the Inspector General's report about the case 
involving Jordan and Roberts. The way I see it, an accounting 
is needed. This is an opportunity for you to declare an end to 
the double standard by holding Mr. Jordan accountable for a 
violation at least in spirit of the memo that you issued 
November 2001. Otherwise, the double standard will be alive and 
well, and agents will fear retaliation for speaking the truth 
about the problems. If that happens, I think my faith in the 
ability of the FBI to reform would erode because that 
atmosphere hurts the FBI's overall effectiveness.
    I am also very troubled that Bruce Gephardt, the FBI's 
Deputy Director, sent an e-mail that said Mr. Roberts had, 
quote, ``brought discredit to the FBI badge.'' In my letter to 
you last week I asked how someone who had done what Mr. Jordan 
has could still be in charge of the office or OPR. And now 
there is a story in the media, I think just yesterday, 
suggesting he misled me, misled Senator Leahy, misled Chairman 
Hatch in December. I am not saying that he lied, but I do not 
think he was forthcoming. You have had some time to think about 
this I hope, so I would like to hear what your plan is for Mr. 
Jordan and what you think of Mr. Gephardt's e-mail.
    Mr. Mueller. Well, Senator, quite obviously, I share your 
concern about a double standard and protections for 
whistleblowers. I think with regard to the issue of Mr. Jordan, 
when the issue arose, I did, as I have in the past, asked the 
Inspector General to look at that issue. And I have reviewed 
the Inspector General's report, and I point out on the one hand 
it concludes that Jordan did not intentionally retaliate 
against Special Agent Roberts, but it did raise issues with 
regard to Mr. Jordan's judgment in that context.
    Because of the seriousness of the issue, and because I am 
looking for guidance on what is the appropriate way to handle 
this, I had a meeting with the Inspector General yesterday, and 
I informed the Inspector General that in reviewing the report 
and looking at the issues relating to judgment, it was my 
belief that that in and of itself was not sufficient to take 
any action, but that I should look at that in the context of 
Director Jordan's handling of the office, his record for 
integrity and judgment throughout his career, which is 
substantial, and to continue to look at that position and how 
he is operating that position, and that is what I intend to do.
    I will tell you also, Senator, that as you are aware, I 
know, that Mr. Roberts, who I respect and is respected by many 
agents in the FBI, also has indicated that Bob Jordan is making 
substantial changes to OPR that were long overdue. And if you 
look at Mr. Jordan's record in OPR in the short time that he 
has been there, he has reduced the backlog substantially. He 
has made substantial improvements to make our OPR better, and 
not only better across the board, but also to eliminate the 
appearance of a double standard.
    Senator Grassley. I think that is a slap on the wrist and 
that you are sending a very bad message to everybody else, that 
there is going to be a double standard continued. Thank you.
    Chairman Hatch. Well, thank you, Senator Grassley. We will 
turn to Senator Kohl then. Let me get this lineup. Senator Kohl 
will go for 7 minutes, and then we are going to go to Senator 
Specter for 14. He has my time as well as his. And then we will 
go to Senator Feinstein for 7, then Senator Feingold for 7. So 
you will have 14 minutes on that side. And I have to leave for 
a few minutes to take a phone call, so if either of you will 
continue to operate that way.
    We will go to Senator Kohl, then Senator Specter.
    Senator Kohl. Thank you, Mr. Chairman.
    I would like to talk about the Homeland Security Advisory 
System, gentlemen. When a decision is made, as it was recently, 
to raise the alert level from yellow to orange, that 
determination puts the entire country on a heightened state of 
alert. News reports at that time suggested that prompting the 
change were serious threats to New York and Washington, D.C. 
And yet there may have been entire areas of the country where 
the danger level of terrorist activity had really not changed 
at all. Surely one cannot suggest that every part of the 
country has the same level of risk. In fact, it is likely that 
more than half the country live in areas that did not need to 
go on a heightened state of alert at all. The threat level 
certainly varies depending upon whether you live, for example, 
in rural Wisconsin or in a major urban area.
    So I ask what can be done to improve the advisory system so 
that we know which regions of the country are truly at risk and 
which regions are not?
    Secretary Ridge. Senator, thank you for your inquiry, 
because as you know, the decision itself to raise the threat 
level and to give the law enforcement community and security 
personnel around the country a warning based on our threat 
analysis is a very difficult and complex one, as it is. It is 
not a decision that is undertaken based upon a single piece of 
information, and it has not historically been done on a given 
day. It is really something that occurs after multiple sources, 
credible sources are reviewed, plot lines are examined, and 
then once the President's Homeland Security Council has had an 
opportunity to review it, to make a recommendation, and then we 
made that decision.
    There is an ability within the existing advisory system to 
regionalize, either in terms of geography or economic sectors 
or the like, the threats. Literally there is that flexibility 
within the system, and we will certainly--it is coming close to 
its first year anniversary--take a look at the system itself, 
see how it has been utilized during the past year--we think it 
has been utilized rather effectively--to determine what 
additional flexibility we could create within the system to 
respond to the concerns that you have expressed and many others 
have expressed, including your colleague to your right. Senator 
Biden expressed a concern about regionalization in more 
specificity with regard to the use of the warning system.
    I will tell you 2 weeks ago, 3 weeks ago, there was enough 
general information from credible sources about potential 
targets that we would interpret as being national in nature, 
warranted our taking the warning system from yellow to orange, 
and not regionalizing it. In the past we have sent out specific 
warnings, you will recall, not through the threat system, but 
we did identify some credible threats to the financial sector 
many, many months ago, and dealt with that specifically.
    So the flexibility is there. We have had the system up and 
operating for about a year. We obviously want to go back and 
take a look and see if we can build more flexibility, but it is 
threat-driven, information-driven. Unless we have that kind of 
specificity that drives us to a specific decision and a 
specific determination, our instinct is to put out the general 
warning rather than a specific one.
    Senator Kohl. Mr. Ashcroft?
    Attorney General Ashcroft. Thank you, Senator. I would like 
to just add that the purpose for the threat advisory system is 
to prevent terrorism. And one of the things that we have 
learned is that those individuals who many not be at the focus 
of the attack are in a position to sometimes participate in 
preventing an attack. We know that individuals first got on 
airplanes in Maine, and then transferred to airplanes that 
eventually were part of the tragedy in New York. We watched as 
individuals took flight training and did other things all 
across the country. So in terms of prevention, we have found 
that individuals are all across the country who have 
represented a part of a threat that is very serious. While I 
think it is fair to say that some part of the country be as 
vulnerable to the specific attack for prevention purposes, a 
high level of alert can be very helpful to us.
    Second, I think it is pretty clear that when we put the 
alerts out, that various parts of the country respond in 
different ways to meet the local needs. So the Director of 
Homeland Security has very appropriately indicated that we have 
the ability to tailor the threats. We also want to make sure we 
are always enlisting the aid of the entire Nation, for 
frequently those who perpetrate attacks stage, plan, develop, 
train and take actions in settings that are not the focal point 
of the attack. And so that we find yes there is a differential 
risk. We hope that even by making the announcement we drive the 
risk down by having an alert public, which we know from 
intelligence the terrorists, when they see alertness and 
vigilance and a high level of security, they defer, default or 
abandon their plans.
    I think we can ask for help from citizens all across the 
Nation, and it has been helpful. That is one of the reasons 
that it sometimes, even for areas that are not likely perhaps 
to be the subject of attack, they can help in preventing an 
attack. That is our No. 1 priority.
    Senator Kohl. Mr. Mueller, do you have a comment?
    Mr. Mueller. No. I would follow with what the Attorney 
General and Secretary Ridge said.
    Senator Kohl. One more question, gentlemen. Most Americans 
live in communities that do not have important national 
landmarks like the Sears Tower or Golden Gate Bridge, and yet 
they are concerned about the chance of a terrorist attack 
against their water sources, power plants and bridges. When I 
surveyed Wisconsin sheriffs and chiefs of police, 40 percent 
reported that they feel that risk of a terrorist attack in 
their jurisdiction. But they report that they are unsure how to 
evaluate the risk to their local infrastructure and how to 
protect their skills, for example, or the shopping malls. And 
if they conclude that their communities are at risk, they tell 
us they cannot afford to pay for the protection that is 
necessary.
    These are real concerns I believe that impact our 
communities on a daily basis. So how can we help them protect 
their population? Does the Federal Government need to do 
perhaps a better job of informing, educating, and when 
appropriate, funding our State and our local officials?
    Secretary Ridge. Senator, the President and the Congress 
have recognized that concern at the State and local level in 
the passage of the Homeland Security Act, when it included in 
the new department an Information Analysis and Infrastructure 
Protection Unit, whose precise mission is to map the critical 
infrastructure around the country, develop means of risk 
assessment, vulnerability assessment, come up with prescriptive 
measures when they deem appropriate. That process began in the 
Office of Homeland Security and resulted in the President's 
National Strategy for Critical Infrastructure Protection, and 
part of the responsibility of the new department will be 
working with your State and local leaders based on the theory 
of managing the most serious risks, those piece of 
infrastructure that have the greatest possibility of 
catastrophic damage and injury to a community, and then coming 
up with the means and methods to protect them if they are not 
already protected.
    But that concern that you have expressed and has been 
expressed by people across the country is part of the 
responsibility of the new department, and specifically the 
Infrastructure Protection Unit within the department.
    Senator Grassley. [Presiding.] Thank you, Senator Kohl.
    Now, Senator Specter.
    Senator Specter. Thank you very much, Mr. Chairman.
    Attorney General Ashcroft, there was a considerable amount 
of publicity given recently in the past 10 days to a situation 
which arose when Pakistani aliens, who had overstayed their 
visits, sought to go to Canada, which they thought had a more 
lenient record on permitting them to stay. And the Canadian 
officials were so over burdened, that they could not 
accommodate the people and told them to come back in 2 weeks. 
And when they then returned to the United States, they were 
immediately arrested and deported to Pakistan, according to 
these news reports. The concern I have is if people who are 
here illegally are genuinely trying to get out of the country. 
What is the harm in letting them do so unless there is some 
specific reason that individuals involved might be terrorist 
suspects? Of course if they were terrorist suspects the action 
probably would have been taken by the Department of Justice, 
Immigration, which has been under your control until very, very 
recently. Is there any problem in letting people leave the 
country voluntarily like the Pakistanis who have overstayed 
their visas without subjecting them to arrest?
    Attorney General Ashcroft. To my knowledge, we did not 
prevent them from leaving the country. They went to Canada and 
they were allowed to go to Canada. According to your report, 
the Canadians could not accommodate them, so it is not our 
position that people cannot leave the country. It is our 
position that people who have overstayed their visa cannot stay 
in the country, and that they should live within the rules 
provided for those who visit the United States, and if they 
overstay and fail to observe the law, we ask them to leave. 
That is what deportation is about. And if they do not leave or 
they find themselves incapable of leaving, then we assist them 
in leaving, and that is why we have moved forward in that 
respect.
    Senator Specter. Attorney General Ashcroft, I do not want 
to spend any more time on this because very limited time, and I 
want to devote my principle time to questions on Foreign 
Intelligence Surveillance Act with Director Mueller. But I 
would ask you to take a look at this very extensive article in 
the New York Times for February 25th. The facts they recite are 
at variance with what you have said. And I once found another 
newspaper article which was wrong, so the article may be 
incorrect, but I would like you to take a look at that, and let 
us have a response in writing as to whether their factual 
representations are wrong, because I am relieved to hear you 
say that if people want to leave and they are just coming back 
because they cannot be accommodated because of the press of 
business in Canada, that they will not be arrested or deported.
    Attorney General Ashcroft. Well, let me just indicate I 
will be happy to review the article. If they are coming back 
with a view toward being gone, that is one thing. If they are 
coming back because they just need a place to stay, that is 
another. I have to say that this has been transferred from the 
Justice Department by and large now with the Immigration and 
Naturalization Service to the gentleman on my left.
    Senator Specter. Well, since you mention that, I am going 
to ask Secretary Ridge to read the article and do the same 
thing with respect to his perspective policy.
    But, Mr. Secretary, do you prefer to be called Governor or 
Secretary? Mr. Secretary?
    Secretary Ridge. Governor.
    [Laughter.]
    Senator Specter. Mr. Secretary, I would ask you to review 
the article too with respect to what policy you would have.
    Secretary Ridge. Sure. Thank you.
    Senator Specter. Director Mueller, I have spoken 
extensively about the FBI's attitudes, standards under the 
Foreign Intelligence Surveillance Act, and I had hoped to have 
a more extensive opportunity to discuss this with you today. 
Senator Hatch has said that we will have another hearing where 
you will be back on a more protracted basis. It is not hard, it 
is impossible in the course of 14 minutes to really explore 
this subject, but I have been asked to co-sponsor legislation 
to take away counterintelligence from the FBI. There is a 
growing school of thought in the Congress that the FBI is a 
super law enforcement agency, but when it comes to 
counterintelligence the FBI has not measured up, and I have 
declined these invitations to support that legislation, but I 
am considering it.
    When we had your oversight hearings, I questioned you 
extensively about congressional oversight because of my 
dissatisfaction when I co-chaired an oversight subcommittee on 
the Department of Justice. And you were effusive in your 
agreement that there ought to be oversight and response for the 
Federal agencies.
    When FBI Agent Coleen Rowley came in and blew the lid off 
of the practices of the Bureau on the Foreign Intelligence 
Surveillance Act with her 13-page letter, she then came in to 
testify with you on June the 6th, and testified that the 
standard which the FBI Field Office In Minneapolis was using 
was a 51 percent more likely than not, and we went through on 
that day, June 6th, a detailed examination with both you--I 
went through with you and Coleen Rowley, about the standards 
which are summarized in a Supreme Court decision by then 
Justice Rehnquist, now Chief Justice, that probable cause is 
established by, quote, ``circumstances which warrant 
suspicion,'' close quote, and then based on totality of the 
circumstances. That standard was not applied by the FBI on the 
application for the warrant for Zacarias Moussaoui under 
Foreign Intelligence Surveillance Act. And we now know from 
what has been gleaned, that had the FBI gotten into Moussaoui's 
computer in combination with the Phoenix FBI memo which was 
lost in the shuffle at FBI Headquarters, with the FBI not 
knowing what it knew, that 9-11 might well have been prevented.
    After that hearing on June 6, we then convened closed-door 
hearings on July 9th, and on July 9th I questioned 7 
individuals from the FBI, including attorneys, and they had not 
heard about the hearing of June 6th. They had never heard about 
the Gates case, and they were applying the wrong standards.
    And then I wrote you a letter on July 10th reciting the 
appropriate standard and then pointing out to you the very next 
day after the hearing, ``In a closed-door hearing yesterday, 7 
FBI personnel handling FISA warrant applications were 
questioned, including 4 attorneys. No one was familiar with 
Justice Rehnquist's definition from Gates and no one 
articulated an accurate standard for probable cause.''
    I didn't get any response until a nonresponsive letter came 
in from John Collingswood, which was received in my office more 
than 2 months later, on September the 12th, which was a 
nonresponse, not dealing with my questions.
    My first question to you, Director Mueller, is, when you 
acknowledge the constitutional authority of congressional 
oversight and you get a letter on a matter of utmost importance 
where the FBI personnel responsible for getting warrants under 
the Foreign Intelligence Surveillance Act, which might cutoff 
another Zacarias Moussaoui, do you not feel you have an 
obligation to respond?
    Mr. Mueller. I do, Senator, and I wish we had gotten a 
response to you sooner. We set about after that hearing looking 
at our definitions of probable cause, the definition that we 
teach down at Quantico, the definition that is in the legal 
handbook for special agents, and we reviewed that and believe 
that is consistent to what we find in Illinois v. Gates. There 
was a period of time in which we were going to put out a much 
larger missive to our agents to explore not only probable 
cause, but other aspects of the FISA process. We determined not 
to do that in August of that year and determined instead to 
expand, in response to your suggestion and your concern, to 
expand on the definition of probable cause as it is put forth 
in Illinois v. Gates.
    Senator Specter. Director Mueller, if you are saying that 
you wanted to put out a memorandum which covered other 
subjects, I find that unacceptable. What happened between June 
6, when you and Agent Rowley came in, and July 10th when we 
interviewed 7 of your key personnel, who apply the standard for 
the Foreign Intelligence Surveillance Act? Let me rephrase the 
question. Is it not entirely possible that there could have 
been something in transit like Zacarias Moussaoui, where these 
people who did not know the appropriate standard and did not 
know about Gates would be applying the wrong standard, and 
another Zacarias Moussaoui would slip through the cracks?
    Mr. Mueller. Senator, at the hearing, I know you asked a 
number of attorneys whether they were aware of Illinois v. 
Gates, and I know you asked one of the attorneys to give the 
definition. Illinois v. Gates is a 1983 case. They may not have 
had on their mind that particular case. Nonetheless, it is 
important for every FBI agent and every FBI attorney to have 
the standard of probable cause as it is espoused in Illinois v. 
Gates. And in the legal handbook for special agents at that 
time and afterwards there is the standard set forth according 
to Illinois v. Gates, No. 1.
    Second, in response to what had happened prior to September 
11th, it was important for us to assure that every time we get 
a request for a FISA warrant it is given due consideration. And 
I get briefed twice a day now since September 11th, and in 
those briefings I discuss what FISA warrants are outstanding 
and what response we have received from Department of Justice. 
And to the extent that there is any concern about the adequacy 
of probable cause, I look at it myself, along with advisers. So 
we have put into place procedures, since September 11th, to try 
to assure that what might have happened prior to September 11th 
does not happen again.
    Senator Specter. Director Mueller, you are wrong on the 
facts. Those agents who testified in the closed-door session--
and you have had access to that transcript, and we published 
excerpts in the report which we filed last week, were applying 
a standard of more probable than not, 51 percent, and that is a 
wrong standard. That is not a standard of suspicion under the 
totality of the circumstances. They were applying the wrong 
standard. Do you disagree with that? I do not see how you can. 
It is there in black and white.
    Mr. Mueller. Well, in the dialog and the colloquy with the 
attorney, the attorney says ``it is not a preponderance of the 
evidence, but it is more likely, more probable than not.'' 
Query whether that is appropriate or not. It may well not be, 
but that has not been decided by the courts.
    Senator Specter. Why do you say it may well not be? More 
likely than not is not the standard. Rehnquist dealt with that 
specifically in Gates.
    Mr. Mueller. I misstated. It is more probable than not, and 
there is some discussion as to whether or not more probable 
than not equates to a preponderance of the evidence. The 
attorney in your questioning said, it is not a preponderance of 
the evidence. He did say more probable than not. And if you 
look at Lafebre and you look at the treatises, there is some 
discussion as to whether more probable or not is the same as a 
preponderance of the evidence.
    Senator Specter. Well, let us talk about that for just a 
minute. More probable than not is exactly the same as 
preponderance of the evidence. In a civil case the standard is 
a preponderance of the evidence, and that is defined as more 
probable than not, distinguished from a criminal case which is 
proof beyond a reasonable doubt. And more probable than not and 
preponderance of the evidence was handled by your Minneapolis 
Field Office as being 51 percent.
    Now, look here, I am not saying you are responsible for 
what happened with Zacarias Moussaoui because you became 
Director in September a few days before 9-11. But I am saying 
that you are responsible, when you appear before the Judiciary 
Committee in a hearing and you hear this discussion about your 
Minneapolis Field Office being wrong, and you do not personally 
take steps to correct it, and these come in more than a month 
later and they do not know the standard. And if you try to 
split a hair between more probable than not than preponderance 
of the evidence, I would like to hear it.
    Mr. Mueller. I am not trying to split hairs, Senator. Prior 
to the hearings in the summer of last year, I had understood 
that we had to do a better job in our FISA process, and I had 
put into place procedures prior to the summer of last year to 
assure that whenever we have an issue relating to probable 
cause, it is addressed at the highest levels in the FBI. I am 
not trying to split hairs on this. I will tell you, as you know 
better than I perhaps, that in Illinois v. Gates they say that 
the probable cause standard--and I will quote--``is a fluid 
concept, not readily or even usefully reduced to a neat set of 
legal rules.''
    And we could debate it. I invite you down. I would like to 
have an additional more extensive dialog on the probable cause 
standard, but I believe at the time in July that we had those 
hearings, we had in our legal handbook the appropriate standard 
under Illinois v. Gates.
    Senator Specter. Well, we are going to have a more 
extensive dialog because the Chairman has said that we are 
going to have another hearing. And when you quote Justice 
Rehnquist, then Justice Rehnquist, now Chief Justice, saying 
that it does not lend itself to any precise mathematical 
definition, that is true, but he goes back to the Cranche case 
in 1813, Chief Justice Marshall, on suspicion under the 
circumstances and the totality of the circumstances.
    One final word, Mr. Chairman. I had a situation when I was 
District Attorney in Philadelphia. On June 13th, 1966 Miranda 
v. Arizona came down, and every police interrogation put 
prosecutions at risk, and I had a 54-page slip opinion from 
Chief Justice Warren. And I put out guidance 4 days later, 
before Friday. I did not want the weekend to pass and had the 
Philadelphia police officers on the street questioning people 
without giving the Miranda warnings and getting the Miranda 
waivers.
    And you are the Director of the FBI, and when a Senator 
calls it to your personal attention in a hearing, and a month 
later they are applying the wrong standards, and I write you 
the next day, and it takes until September 16th for the Bureau 
to put out a memorandum which is hard to figure out and does 
not accurately quote Gates, I just think something is really 
fundamentally wrong, and it goes to the most important issue 
facing America today, and that is to apprehend terrorists. And 
I compliment what the Department of Justice and the FBI are 
doing generally on that, and what Secretary Ridge is doing. I 
think we are on the right track. But I think when you have a 
major gap as identified here, you are accountable, Mr. 
Director.
    Thank you, Mr. Chairman.
    Chairman Hatch. Do you care to respond?
    Mr. Mueller. Well, I do not disagree, Senator, at all that 
I am accountable, and I can tell you that I do not mean to swap 
stories about district attorney versus prosecutor, but when I 
was a prosecutor in 1983, when Illinois v. Gates came out, and 
I was Chief of the Criminal Division, I am sure I put out a 
memo just the way you put out a memo because Illinois v. Gates 
did away with the Aguilar-Spinelli two-prong approach. I am 
sure I did at that point in time.
    Senator Specter. Well, did you put out a memo? I would like 
to swap that story.
    Mr. Mueller. Well, I am sure I did back in 1983 when the 
case came out.
    Senator Specter. Well, I would like to see the memo. I will 
produce mine.
    [Laughter.]
    Mr. Mueller. I will try to find mine.
    Senator Specter. We are a couple of public servants, 
Director Mueller, and I respect you, and you have perhaps the 
most important job in Washington today next to the President, 
but there has to be a sense of urgency on these matters. And we 
are dealing with life or death, and there is a gap of time when 
your people did not know the standard.
    Mr. Mueller. Every night I go to bed, Senator, 
understanding that every day in this job I deal in life and 
death.
    Chairman Hatch. Well, let me just add that I think Senator 
Specter is doing all of us a favor in raising these important 
issues, but let us also understand that Director Mueller 
inherited a tremendously important job in a tremendously trying 
time with all kinds of problems that pre-existed, and I just do 
not know anybody who could have done a better job under the 
circumstances, and I think that what Senator Specter is saying 
here is, is that we want to do even better if we can. And I 
respect my dear colleague from Pennsylvania very much, but I 
also respect you, Director Mueller. I have watched what you 
have done won there, and you have brought about a sea change, 
which has been necessary, in my opinion, since 9-11, and you 
deserve an awful lot of credit for it.
    Now, I know that you are striving for perfection, but like 
all of us up here, I doubt seriously that you have reached that 
yet, so there is still room, and there is room for all of us 
too. For instance, we did not get the moneys to law 
enforcement. That is our job. We did not do that until about 3 
weeks ago, so there are lots of ways we can find fault all the 
way around. But let me just say we are proud of what you are 
doing, and I am proud of what Senator Specter is doing in 
trying to make sure that we have the very best law going for us 
at every time. So let us just work together and see what we can 
do to make things work perfectly if we can.
    Mr. Mueller. Well, Senator, if I might respond, I am 
absolutely open to any suggestions. As I said in my opening 
statement, we have made substantial changes I believe, but we 
have got a long ways to go, and to the extent that there are 
suggestions, whether it be from the good Senator Specter or 
others on the committee, I welcome them. I look forward to 
working with each member of this committee to make the FBI a 
better organization, and will continue to do so.
    Chairman Hatch. Well, we appreciate that.
    Senator Kennedy has graciously agreed to allow Senator 
Feinstein to go next, and then we have another 7 minutes on 
that side. Senator Kennedy, do you want Senator Feingold, or do 
you want me to come back to you?
    Senator Kennedy. Come back to me.
    Chairman Hatch. After Senator Feinstein, we will come back 
to Senator Kennedy, and we will take 14 minutes on this side.
    Senator Feinstein.
    Senator Feinstein. Thank you very much, Mr. Chairman.
    I have three quick questions, one somewhat off the subject, 
for the Attorney General, one on bioterrorism and one on port 
security.
    Let me begin if I may with you, General Ashcroft, and I 
think you know I am going to ask this question. On January 8th 
you were good enough to see me, and we had an opportunity to 
discuss reauthorization of the Assault Weapons Ban, which 
expires in September of 2004. As you know, I asked you this 
question in your confirmation hearing. You said you would be 
supportive of reauthorization. The President, in his campaign 
has said he was supportive of not only reauthorization but also 
legislation prohibiting the importation of large-capacity 
ammunition devices.
    The question that I want to ask you today is would you in 
fact, and would the administration in fact, be supportive of 
reauthorizing the assault weapons legislation, along with the 
clip ban first. Second, including your legislation which you 
proposed when you were a member of this committee, to prohibit 
juveniles from possessing assault weapons. And then third, and 
perhaps I should leave this for a second question but whether 
you would consider a strengthening of the legislation?
    Attorney General Ashcroft. Thank you, Senator Feinstein.
    As the President stated in his campaign, the administration 
supports the current assault weapons ban. As you know, the 
original law required a study to determine the effects of the 
law in reducing crime. That study, conducted by the National 
Institute of Justice from 1994 to 1996, and released in March 
1999, concluded that, and I quote, ``The ban's short-term 
impact on gun violence has been uncertain,'' close quote. And 
then the study recommended further study, and we will continue 
to study what impact the ban has had on reducing crime.
    Senator Feinstein. My question was a little different. My 
question was, will you be supportive of reauthorization with 
the ban on the importation of large-ammunition feeding devices, 
and of your proposed legislation to prohibit possession by 
juveniles of these weapons?
    Attorney General Ashcroft. The administration supports the 
current law. Those proposals go beyond the current law, and we 
will have to review those proposals and any other proposals 
that go beyond the current law to determine their effect on gun 
crime.
    Senator Feinstein. Thank you very much.
    I would like now to turn to bioterrorism. When I was 
Chairman of the subcommittee, we played a role in the 
bioterrorism bill specifically, requiring that any lab that 
possesses dangerous agents like anthrax, smallpox, and 35 other 
agents, register to possess these agents, require background 
checks on lab scientists, and require a periodic update, 
actually every 2 years, of their possession of these deadly 
pathogens.
    My concern, Governor Ridge, is that the new rules put out 
by HHS do not require laboratories handling the world's most 
dangerous pathogens, to fully upgrade their security until 
September 12th of this year. And my question to you is, have 
you reviewed these rules? Do you believe security at research 
labs handling these agents is adequate? Bear in mind that we 
did have that one episode at Texas Tech, where you had, I think 
it was plague missing, which turned out to be destroyed, 
fortunately. But nonetheless we have a very weak system in 
place.
    Secretary Ridge. Senator, your initiative to, one, not only 
create a national registry, but also to assure that the 
facilities that do research on these agents and these pathogens 
are themselves secure, has led the Department of Homeland 
Security and the Department of Health and Human Services to 
have several discussions about this very important subject. The 
last discussion I had with Secretary Thompson and his team is 
that they in fact had been sending out teams from HHS to review 
the pathogens, to take a look at the facilities, and also to 
examine with their own eyes the security measures that had been 
recommended, put in place or need to be completed. I think the 
date of September of this year--and I am not familiar with the 
specific language of the regulation since it was promulgated by 
HHS--is a realistic assessment as to the time it will take for 
these universities and labs to complete the security 
precautions and meet the standards that HHS has set pursuant to 
your initiative.
    Senator Feinstein. Thank you, Governor. As you know, and I 
think Mr. Mueller knows, when this committee held hearings 
following the anthrax situation, and I came down to FBI 
Headquarters, there is no specificity in terms of how many labs 
possess anthrax in this country. The estimates ran anywhere 
from 12 to over 20,000. Are we going to be able to narrow that 
down to know exactly, and do we know exactly, how many labs in 
this country utilize anthrax?
    Secretary Ridge. Senator, I believe the intent behind your 
initiative, and certainly the effort that has been undertaken 
by Secretary Thompson, is to identify with that kind of 
precision not only the number of labs, but the contents that 
they have within those labs regarding the pathogens and agents, 
that potentially abused could cause the kind of horror and 
death and destruction that everybody is concerned about. I mean 
that is the intent behind the initiative, and Secretary 
Thompson and his team are moving forward rather aggressively on 
it.
    Senator Specter. [Presiding.] Senator Feinstein, Senator 
Hatch has asked me to take the chair. He had to depart, and has 
asked me to be very close on time because we have to excuse the 
witnesses at 12:30, and there are other senators who will not 
be questioning.
    Senator Feinstein. All right, fine. I will yield then.
    Senator Specter. I am sorry to interrupt, but that is the 
order of the day.
    Senator Kennedy now has 7 minutes, and then we will proceed 
to the other side of the aisle.
    Senator Kennedy. Thank you very much, Mr. Chairman.
    Mr. Ridge, I want to just draw to your attention that we 
still have not developed in the vaccine program a compensation 
program. That has not been developed, and as a result there are 
very few people that are actually being vaccinated with anthrax 
and smallpox in the country. We have to do that. It can be done 
very easily and quickly.
    I have talked to Secretary Thompson. I have talked to the 
Chairman of our committee, Senator Gregg about it. We need to 
get ourselves together to pass one.
    As you know from what the military has done, there are very 
few side incidents as a result of this, but there have been 
some, and we have to give the assurance that if people are 
going to be vaccinated, if they are going to lose time at work 
and they are going to lose income, they are going to be 
compensated for it.
    Using traditional workman's compensation isn't going to 
work. We have got to get something that is going to work. We 
haven't done it. It is essential if these programs are going to 
be brought and get done. So I would invite your active 
involvement. We want to work with the administration to get the 
job done, but it hasn't gotten done yet and time is moving on.
    Secretary Ridge. Senator, I appreciate your observation and 
the sense of urgency that accompanies it. I think the single 
largest impediment to facilitating the immunization that we all 
think is important to inoculate those who would be called upon 
to inoculate is the compensation program.
    I know that Secretary Thompson has been working with OMB 
and others, and I was under the impression that either they had 
delivered or were close to delivering a compensation plan for 
review of the Congress. I will check on it and report back to 
you today.
    Senator Kennedy. And it doesn't have to be complicated. We 
have got other pieces of legislation that we could pattern 
legislation after and get it done. If others are trying to 
bring in other tangential issues, it is going to get 
complicated, but it is important. And then eventually in bio-
shield, we will have to deal with this issue, but that is 
further down the road. Let's try and get this done.
    Could I raise with General Ashcroft--and let me welcome all 
of you here--on the matter with asylum seekers the case which I 
think you have read about in the newspapers, the Guatemalan 
woman who fled severe human rights violations. Her husband was 
an ex-member of the Guatemalan military. She had been 
repeatedly raped and threatened with death. She sought the help 
of the Guatemalan government, but it failed to protect her. 
This is the matter of what they call the RA regulation.
    We had important protections under Attorney General Reno in 
terms of particularly women who had suffered the most egregious 
kinds of situations in terms of brutality. We understand now 
that your Department has taken a different position, or not, on 
these matters?
    Attorney General Ashcroft. Let me see if I can recollect 
what I believe has transpired in that matter without commenting 
on the merits of the case because the matter is before me as 
Attorney General.
    Attorney General Reno brought the case out of the 
immigration appeals setting into her own authority for 
decision, during which time she began a process of reviewing 
the regulations. After regulations were reviewed, the case was 
sent back to the Board of Immigration Review and the 
regulations which were being formulated have been placed on 
hold, given the transfer of the authority in the Department of 
Justice to the Department of Homeland Security for handling 
immigration matters.
    I have, as a result, pulled this matter--before the 
transfer, I pulled this matter back for my own personal 
decisionmaking and the regulations are now under consideration 
at the Immigration and Naturalization successor in the 
Department of Homeland Security, with the assistance and 
collaboration, I believe, of the Justice Department on those 
regulations.
    The decision made regarding this specific case will be made 
by me as Attorney General in my responsibilities in handling 
appeals. The regulation is in the process of formulation and it 
is being developed by the Department of Homeland Security with 
the assistance of the Justice Department.
    Senator Kennedy. Well, just basically, as I understand it, 
cutting to the chase on this, she obtained asylum in 1996, but 
the Board of Immigration Appeals reversed that decision. The 
Board found that she did not meet the criteria for asylum 
because her abuse was not perpetrated by her government and 
because her husband's abuse was directed at her individually 
rather than a larger social group.
    That was what was changed by Attorney General Reno, 
vacated, in order to protect her from being forced to return 
after she was able to escape the murder threats from her 
husband, the beatings that had taken place and the rest. That 
is what is going to be back before you, whether that position 
that was taken by the previous administration will be taken.
    I urge you to sustain the earlier--I know my colleague, 
Senator Leahy, and others are interested in it. It is, I think, 
an extraordinary matter, particularly when we have these kinds 
of situations that are--many women are the victims of these 
honor killings, sexual slavery, and domestic violence. If we 
are going to be denying them protection under the new policy, I 
think it is a dangerous alteration and change and we ought to 
know about it.
    Let me just ask you in a general way, between Secretary 
Ridge and Attorney General Ashcroft, who is in charge of our 
immigration policy now.
    Secretary Ridge. As of March 1, Senator, that 
responsibility is transferred to the Department of Homeland 
Security.
    Senator Kennedy. I notice that Attorney General Ashcroft, 
as I understand it, is still issuing regulations on immigration 
policy. Your Department has ceased now from any kind of 
regulations?
    Attorney General Ashcroft. I think we are assisting by way 
of assistance in regulations. I don't believe we will be 
promulgating regulations generally. There is a part of the 
appellate process for review of immigration decisions which 
stayed at the Department of Justice.
    The most recent of the regulations we have issued was a 
result of the disaggregation of the regulations, some which 
would stay Department of Justice regulations relating to those 
appeals, the others being the rest of the immigration 
regulations which would have followed the entire function, 
absent that appellate function, over to the Department of 
Homeland Security.
    Senator Kennedy. Well, as I understand it, last Friday the 
Justice Department issued a final rule asserting that it 
continued to have jurisdiction over substantial areas of 
immigration. I think it is going to be important to know where 
responsibility is going to lie in terms of the regulations.
    Attorney General Ashcroft. Absolutely.
    Senator Kennedy. Let me get to the----
    Senator Specter. Senator Kennedy, your time has expired, 
too.
    Senator Kennedy. I would like to submit questions, if that 
would be possible.
    Senator Specter. Of course, and I am reluctant to interrupt 
you and it may be that there will be extra time because there 
are no other Senators present. Senator Chambliss is next in 
line.
    In the absence of any other Senators, if you want to 
proceed with another question, why don't you do that?
    Senator Kennedy. Well, I would, just on the Haitian 
refugees. I guess, General Ashcroft, if I could, just on this 
part, even in the areas of the Haitian refugees when they are 
found to have been granted asylum, even when there is no fear 
of their fleeing, they are continuously detained, unlike any 
other group. The question is why.
    To be honest about it, I haven't given you the question 
before. It is a technical question, but enormously important. 
If you want to give me an answer, I would welcome it. If you 
want to give me----
    Attorney General Ashcroft. I can give you a general 
response, but then I will be pleased to followup in writing.
    Senator Kennedy. All right.
    Attorney General Ashcroft. The detention for those who are 
in violation is based upon a potential that they flee. When you 
have mass migrations and there are pending applications, from 
time to time our Government has decided that those who are the 
subject of pending applications provide such a risk of non-
compliance in the event the application is denied that an 
unusual or a different policy is adopted.
    I will be pleased to respond to you fully in regard--I 
believe you are making reference to a group of Haitians that 
came about----
    Senator Kennedy. Haitians that have been actually granted 
asylum, and this matter is being appealed. It is many months in 
terms of appeal, and without any fear of fleeing, they are 
continually detained. It is the only group that we do that to. 
It seems to be to be unfair.
    Attorney General Ashcroft. I will be happy to report back.
    Senator Kennedy. I will followup with a question that will 
spell this out in detail, but if you could look at it, I would 
appreciate it.
    Attorney General Ashcroft. Thank you.
    Senator Kennedy. I thank the Chair.
    Senator Specter. Thank you, Senator Kennedy.
    Senator Chambliss is up next and will be chairing in the 
last portion of the hearing. Senator Hatch had agreed with the 
witnesses to conclude the hearing by 12:30.
    Before I depart, Secretary Ridge, one inquiry about the 
coordination of analysis of intelligence information. I was 
pleased to see the President has issued an executive order 
coordinating all of those matters with the Central Intelligence 
Agency.
    You and I have had extensive discussions in the past, with 
my view having been and still is that the appropriate 
institution for that responsibility is the Office of Homeland 
Security. We are going to be considering that in the 
Governmental Affairs Committee, where I also serve.
    We will be taking a look at what the experience has been, 
and especially as to what the budget has been, so much of the 
budget controlled by the Defense Department, but we will be 
anxious to see how it all works out. Institutionally, you have 
got the responsibility and there are many of us who feel you 
ought to have the authority.
    Senator Chambliss, the floor is yours, and the presiding 
officer-ship.
    Senator Chambliss. [Presiding.] Thank you, Senator.
    Gentlemen, let me first of all just say that as an 
oversight committee it is our job, of course, to look over your 
shoulder, to criticize you when you need to be criticized. We 
probably go overboard in doing that all too often, and I have 
certainly done my share of it.
    But when you have successes, we need to compliment you and 
the success we had over the weekend in fighting the war on 
terrorism was a joint effort on behalf of all of you, as well 
as Director Tenet. And I am sorry he is not here to hear this, 
too, because when you do have success, we need to thank you for 
the good job you are doing.
    I hope you will express to all the folks who are working 
under you our appreciation for their continuing efforts. They 
have got a long way to go, but this is the kind of success that 
sure makes all of us feel better, as I know it makes you and 
our Commander-in-Chief feel much better about the war that we 
are waging.
    All of you know that my main focus over the last year-and-
a-half has been on the issue of information-sharing from a 
primary intelligence perspective. We have debated and argued 
over what should go into the bill creating, Secretary Ridge, 
your department, and I couldn't be more pleased to have that 
department stood up than to have it done over the past weekend. 
I just wish it had been three or 4 months ago, but we are glad 
to get it up and going now, with the dragging on of the 
legislation that we had to go through.
    With respect to information-sharing, I want to direct this, 
Director Mueller, to you and to Secretary Ridge primarily. Bob, 
you know that I have had this problem regarding the stovepipe 
mentality within all agencies. Senator Specter has again 
reminded us this morning of some of the practical problems that 
we had regarding memos that were issued in your department.
    I want you to tell me how you are carrying out the fact of 
getting away from that stovepipe mentality, sharing information 
internally as well as horizontally with other agencies.
    Secretary Ridge, I have had some conversations with some of 
your folks about the establishment of a plan for sharing of 
information all the way down to the State and local level. I 
would like for you to tell us where you are with that, what is 
your time line on that.
    If I could hear from both of you, please.
    Mr. Mueller. Let me go ahead and start and talk about what 
we are doing in the Bureau. One of the things we have not done 
in the past is take information we have and put it in reports. 
In the intelligence community, traditionally there have been 
reports officers. So you take information, bits of 
intelligence, strip off the sources and methods, and produce an 
intelligence product for the intelligence community.
    Since September 11, we have established a reports officer 
corps to do that, and we want to extend that all the way to the 
field so that we have in each of our field offices reports 
officers that can take information and put it in the format 
that will enable it to be distributed not just amongst the 
Federal agents, but also the State and local agents.
    Senator Chambliss. Are those reports officers still in the 
process of being established or have you already got that done?
    Mr. Mueller. We already have, I think, 12 to 15. We have 
got another 20 back at headquarters that are in the background 
phase, and we hope to extend that throughout the country.
    We also have dramatically increased our analysts, taking in 
25 analysts from the CIA that have helped us since September 
11. And with that analytical capability, with the reports 
officer capability, that gives us the individuals, the people, 
that can assist us in the flow of information.
    But what is critical to our success is to have the data 
base structure and the foundation so that our data base 
information goes into a modern data base that can be the 
foundation for not only exchanging information within the FBI, 
but disseminating information throughout the Federal law 
enforcement arena as well as the State and local arena.
    Hopefully, by the end of this year we will be in that 
position where we have a modern data base structure where most 
of the information can be made available to others in the 
intelligence arena or the law enforcement arena, and we by the 
same token can have access to other data bases.
    So a substantial portion of our success will be dependent 
on having an IT structure that enables us to share information 
horizontally, as opposed to doing it by paper vertically, which 
is our current situation.
    Secretary Ridge. Senator, we have been tasked in the 
Department of Homeland Security to develop a protocol to share 
with State and local law enforcement the kind of information 
that is inherent to our basic responsibility, and that is 
dealing with the vulnerability of critical infrastructure. The 
three individuals who primarily will be leading that department 
have been identified. They have not been publicly announced. 
They have been going through the process of being vetted so 
they can take on that position.
    We will work in conjunction with our colleagues at the FBI, 
with whom we have got a very close daily collaborative working 
relationship, to develop that protocol because there are times 
when we deal with the same groups, but provide information 
either to disrupt terrorist activity or information they need 
to secure a particular piece of infrastructure.
    So the responsibility to develop that plan and that 
protocol is ours. It will be also reflected in the kind of 
organization we ultimately set up. As we mentioned earlier in 
my remarks, we are talking about reconfiguring many of these 
agencies in a more regional approach as part of that 
consideration as to whether or not we would go to a regional 
approach, whether that facilitates our ability to collaborate 
with the State and local officials, including law enforcement 
officials, and our ability to facilitate the analysis of both 
information and the protection of critical infrastructure.
    So it is very much on our minds. It is one of the highest 
priorities of this unit. We have identified the individuals who 
will be leading the unit. We continue to work with our 
colleagues in the FBI to develop a protocol that will meet our 
mutual needs.
    Attorney General Ashcroft. Senator, might I just add a 
couple of things? The number of joint terrorism task forces at 
the FBI has been expanded, and they are key to this 
information-sharing so that you have representatives of law 
enforcement working together all around the country.
    The second point that I would make that I think is very 
important about what the FBI is doing is that there is underway 
a program for training the FBI in sharing information and 
training local officials in receiving and exchanging 
information. Within the next 18 months, I believe we will be on 
target for training about 40,000 people in that exercise.
    So if you want to do something, you train for it and you 
put it in your institution, and Director Mueller has done that 
very, very thoroughly not just in the way the reports are 
configured and distilling the information to make it available 
for transmission, but actually training and using the structure 
to get the word out.
    Senator Chambliss. I want to go to Senator Feingold because 
my time is up, but let me ask you just a quick yes or no on 
that particular issue.
    Mr. Attorney General, is the funding for that training of 
those State and local officers over and above the $3.5 billion 
that has been allocated to our first responders?
    Attorney General Ashcroft. I believe that it is.
    Senator Chambliss. Thank you.
    Senator Feingold.

STATEMENT OF HON. RUSSELL D. FEINGOLD, A U.S. SENATOR FROM THE 
                       STATE OF WISCONSIN

    Senator Feingold. Thank you, Mr. Chairman.
    Let me first sincerely commend the three of you for many of 
the recent successes in the fight against terrorism, 
particularly the recent arrest of Khalid Shaikh Mohammed. I 
think it was a very heartening moment for all Americans.
    One of the most vital responsibilities of Congress is to 
ensure that the powerful tools we give to law enforcement are 
used effectively and appropriately. And while it is a start, 
one hearing with Attorney General Ashcroft, Secretary Ridge and 
Director Mueller does not end the Senate's role of oversight. I 
just want to echo Senator Schumer's, I think, very appropriate 
request that each of you, if at all possible, return for a 
separate hearing. I hope we can have a commitment to that 
effect.
    Let me also underline what Senator Leahy said about a 
sequel to the USA PATRIOT Act. At a hearing last year, I asked 
a deputy assistant attorney general at the Department about 
rumors that such a bill was being considered. She testified 
that various proposals were being considered, but nothing 
concrete had been developed.
    She also did agree, General, that the Department would 
provide us with some sense of where you were heading on this. 
So I was concerned and really fairly disturbed to learn 
recently that a draft bill has been prepared and circulated 
within the administration. It is absolutely crucial that you 
consult with Congress in a timely manner in developing such 
legislation.
    As you know, I thought we moved too quickly even on the USA 
PATRIOT Act, but at least there was some justification for such 
unusual haste in that case. I think it is harder to argue that 
in this case, given the fact that we asked for an opportunity 
to participate months ago. So let me respectfully urge you to 
start communicating with us today if you have legislative 
proposals that you would like us to consider in this regard.
    Let me also comment briefly, General Ashcroft, on what you 
said about the Department's successes in court. I just want to 
clarify a few points. You said the Department's withholding the 
names of people detained for immigration violations after 
September 11 was sustained. In fact, a Federal court ruled that 
the Department should release the names of the immigration 
detainees and that decision is currently on appeal.
    On the issue of closing immigration hearings, there is, in 
fact, a split between the Federal appellate circuit courts. 
While the Third Circuit has upheld the Department's closing of 
immigration hearings, the Sixth Circuit ruled against the 
Department, finding that a blanket policy of closing hearings 
without a particularlized showing of why an individual's 
hearing should be closed is, quote, ``odious to a democratic 
society,'' unquote. So I remain troubled by the positions the 
Department has taken in these cases and I respectfully urge you 
to reconsider them.
    Secretary Ridge, I am glad you mentioned that prevention 
was the leading priority, as it must be. I am concerned that in 
our fight against terrorism, this administration is not doing 
enough for our Nation's first responders, the men and women who 
work on the front line of our neighborhoods and communities.
    If our fight against terrorism is going to be effective, we 
need to ensure that the necessary resources are delivered to 
them, and I am extremely concerned that the new money we 
provided in the latest budget for first responders is only 
about $1.3 billion out of a budget of over $390 billion. That 
is not sufficient for a top priority; it is not enough to 
ensure that our first responders will be able to successfully 
confront the new challenges facing them.
    Let me turn to one other subject for my questions. The FBI 
and a few police departments have had a long and troubling 
history of spying on law-abiding Americans, like civil rights 
activists and anti-war protesters, Americans who were simply 
exercising their First Amendment rights to political 
expression.
    Police departments in cities like New York, Los Angeles, 
San Francisco and Seattle participated in these abusive 
surveillance tactics, and recently the Denver Police Department 
has joined the list. It has been revealed that the Denver 
police spied and maintained files on over 200 organizations and 
over 3,200 people. The police labeled nuns, peace activists and 
other activists as, quote, ``criminal extremists,'' unquote, 
maintaining information in a computer data base that could be 
then shared with neighboring police departments.
    Mr. Attorney General and Mr. Mueller, as I hope you can 
appreciate, in an era of terrorism being labeled a criminal 
extremist, or even tagged as a suspicious person in the 
government data base, can have very serious consequences. 
Consent decrees played an important role with regard to these 
issues. They placed important restrictions on police spying 
activities, for example, requiring a police officer to have 
specific information about criminal activity before 
investigating a political group.
    General the draft of PATRIOT Act II, however, would 
automatically end these consent decrees that were put in place 
to protect Americans' First Amendment rights. Mr. Attorney 
General, can you cite an example of a terrorist plan that went 
undetected because local police had their hands tied by a 
consent decree placing limits on their domestic spying 
capabilities?
    Attorney General Ashcroft. Senator, with your permission, I 
would like to respond to the suggestion that there is a PATRIOT 
Act II. When individuals indicate to you that if there is a 
proposal, we will confer with you, I believe they are right. 
There is not a proposed Terrorist Act II from the Justice 
Department. No final discussion has been made with the Attorney 
General about proposals. No final discussion has been made with 
the administration about proposals.
    Now, let me just say that we constantly are thinking of 
things that ought to be considered, and we believe that it is 
in the interests of the country that we think expansively and 
that we have a thorough and clear debate about them, 
considering the pluses and the minuses. And we don't believe 
that it is appropriate to never mention anything unless it has 
already been decided that it is totally OK. You can't do that; 
consideration requires that.
    So if someone leaks the fact that there are items under 
consideration or that there is a matter of discussion, that 
doesn't mean anything out of the ordinary. I hope that 
characterizes the fact that we are constantly considering how 
to improve.
    I want to assure you that there has been no bill decided 
on, no proposal decided on. I am keenly aware that the 
administration cannot pass legislation. Only Members of the 
Congress can pass legislation. It would be the height of 
absurdity for me to have a secret matter that I hoped to make a 
law without telling Congress. I mean, I simply don't understand 
that. So we will confer, but I will prefer, if I can, to weed 
out things that I believe are inappropriate before I come to 
the Congress with an idea.
    Senator Feingold. General, I would really urge you to do 
that, and let me just say that you know my view that the last 
time we had a USA PATRIOT Act that the kind of discussion and 
airing of the issue simply did not happen. There is a debate 
about whether it could have happened. I appreciate your 
commitment to it happening in this case. The fact is there are 
some specific proposals or possible proposals out there. I 
don't think it is too early for people like you and me and 
others to start discussing whether they are a good idea.
    I am wondering if you could respond to my specific question 
in the few seconds I have, which is can you cite an example of 
a terrorist plot that went undetected because local police had 
their hands tied by a consent decree placing limits on their 
domestic spying capabilities?
    Attorney General Ashcroft. I cannot.
    Senator Feingold. Thank you, General. And, of course, I 
look forward to discussing these provisions and perhaps we 
could followup with a conversation about the items that we saw 
at least in this draft, whatever this draft is. There are 
enough items there that people are raising concerns about that 
the conversations and consultations should begin now, in my 
view.
    Attorney General Ashcroft. Well, I don't believe that I 
should start to consult and defend things which I believe are 
indefensible or are not a part of something that I would seek 
to propose. I guess that is my view. Until I have something 
that I think is appropriate, I don't know that I should engage 
in some discussion about something that we don't believe is 
appropriate.
    We could agree on a lot of these things that, hey, those 
don't belong in our discussion.
    Senator Feingold. I look forward to engaging in it as soon 
as possible. Thank you, General.
    Attorney General Ashcroft. Thank you.
    Senator Chambliss. We have got 14 minutes left and we have 
got two 7-minute questioners left.
    So, Senator Schumer.
    Senator Schumer. Thank you, and I very much appreciate all 
three of you being here. I have a couple of questions I would 
like to ask.
    First, I want to followup on what Senator Feinstein had 
asked you, General Ashcroft. As you know, she authored the 
assault weapons ban in the Senate and I was the author in the 
House. You mentioned you support the current ban. Would the 
administration support reauthorizing that ban, extending it, 
because if not, it will expire? Will you work for that? What 
happens if in the House they decide to bottle it up? Three 
questions. Would you support reauthorizing it?
    Attorney General Ashcroft. As the President stated during 
his campaign, the administration supports the current assault 
weapons ban. The original required a study. That study 
indicated that the results of the ban on gun violence were 
uncertain. We are continuing the study. The administration 
supports the current law.
    Senator Schumer. But you are not saying whether you would 
support a reauthorization bill that we hope we can pass?
    Attorney General Ashcroft. The administration supports the 
current law.
    Senator Schumer. OK, thank you. Next question--and I am 
sorry to be quick here, but we don't have much time. And 
Senator Hatch is not here, but I want to reiterate strongly my 
request to him earlier. This is one of the most important 
subjects we face. We have three of the most important gentlemen 
here and I would say that we simply don't have enough time in 7 
minutes to cover the waterfront on so many of these issues.
    To not only have all three together, but to limit the time 
to 12:30, doesn't really give justice to the importance of 
this. I am going to renew my request strongly, hopefully joined 
by others here, that we be allowed to have each of you come at 
your schedules--I don't care if we have to do it in the 
evening--so that we can ask questions.
    I take it none of you would object to coming back. Is that 
fair to say?
    Secretary Ridge. Correct.
    Senator Chambliss. You won't have any disagreement on our 
side, I am sure.
    Senator Schumer. OK, great. So let the record show all 
three have agreed that they would come back. Fair enough?
    Secretary Ridge. Fair enough.
    Senator Schumer. Will whoever doesn't want to come back 
raise their hand?
    [Laughter.]
    Senator Schumer. Let the record show none of these three 
fine gentlemen has raised his hand.
    This one is for Secretary Ridge, and congratulations on 
your appointment. My question is about homeland security, where 
I have real worries, and let me just ask you one. I have been 
very concerned about nuclear weapons being smuggled into this 
country, not so much dirty bombs, although I am very concerned 
with that--that is harder to guard--but real nuclear material 
and bombs.
    Senator Warner and I, obviously in a bipartisan move, had 
put in first the homeland security bill and then in the 
supplemental appropriation a proposal to fund research for 
detection devices that could be placed on every crane that 
loads or unloads a container, on every toll booth where 
containers come through the Canadian and Mexican borders, to 
develop these detection devices, which can be done according to 
every expert.
    The administration didn't oppose the language, but opposed 
putting any money in and we ended up with $15 million, which is 
not enough. And God forbid, one of these weapons is smuggled 
into our country. I wear this flag everyday in memory of the 
people who died in my city on 9/11 and elsewhere. This would 
even be worse.
    Can we get the administration's support to find the dollars 
in the supplemental appropriation so that we can develop these 
kinds of detection devices? No one objects to it in substance; 
they just say there is no money for it.
    Secretary Ridge. Well, Senator, first of all I am not 
familiar with the specifics of the legislation. I will 
certainly make myself familiar, but in the 2003 budget that we 
inherit in the Department of Homeland Security we do have 
several hundred million dollars that will be assigned to 
Science and Technology Unit.
    One of our highest priorities is examining some of the 
research that is being presently conducted either in the 
national labs or the university research labs to see if there 
is anything out there that we could prototype to address the 
concern that you have.
    So I will just make it a point of personal interaction to 
get back with you, one, to reexamine the legislation. I am not 
sure at this time we need more money. Because of the 2003 
budget, we do have dollars in the Department of Homeland 
Security and we will see how they mesh, and if there is a 
concern, I will get back to you.
    Senator Schumer. I don't want to carry on an argument here 
because time is so limited. The experts say it will cost about 
$250 million, total, to do this. The total budget for research 
for everything, I don't think is that. And so I think, with all 
due respect, we need some more money for this.
    And it was not the Senate, not the House, not Democrats 
here, not Republicans here, but the administration in the 
personage of OMB who basically knocked out the dollars. I had 
an agreement. Ted Stevens supported our amendment and put it in 
the Senate bill. So I hope you would look at that.
    Secretary Ridge. Let me review. We did get ample funding. 
We did get some dollars transferred, I think, from DoD and I 
think it is important for me to take a look at whether or not 
they are eligible to begin that very considerable research 
initiative that you are talking about. It is something that we 
have as one of the highest priorities within the department. 
Let me review it and get back to you.
    Senator Schumer. Could you get back to me in writing?
    Secretary Ridge. Absolutely.
    Senator Schumer. One final question. I am very worried--I 
am worried about so many things these days, as we all here--
about shoulder-held missiles that can shoot down an airplane, 
God forbid. And not only are hundreds killed, but commerce 
basically comes to a standstill.
    Some of us here, Senator Boxer and I, have proposed that we 
spend money--we propose taking it out of the anti-missile 
defense, which is a longer-range threat, but it could come from 
anywhere, and outfit every commercial airliner with the 
wherewithal to prevent the stinger from hitting. We do this in 
our military planes. El Al Airlines does this. Obviously, they 
are most concerned with security.
    I am wondering if the administration would support such a 
proposal to do this. It is expensive, but the alternative if, 
God forbid, it happens is even more expensive.
    Secretary Ridge. Senator, literally within hours, if not 
the next day after the failed effort to use the MANPADs 
overseas against the El Al airliner, we convened a group of 
representatives from all the agencies that had anything to do, 
knowledge or experience, with the MANPADs themselves, the 
broadest possible group of agencies to come up with counter-
measures and to look at the existing technology, its cost, and 
to basically do some work to see whether or not--it is an 
extraordinarily expensive acquisition at this time, but to see 
whether or not there can be some modifications to the existing 
technology that might be deployed.
    So, again, that is an issue that as soon as it occurs we 
recognize the considerable impact on lives and on commercial 
aviation and on the economy and the catastrophic consequences. 
We have taken a look at some counter-measures and that is part 
of the internal discussion, but there has certainly been no 
commitment one way or the other to deploy them on commercial 
airliners.
    Senator Schumer. Thank you, Mr. Chairman. I just would ask, 
No. 1, that I be allowed to submit questions in writing which 
the witnesses can answer. And, second, I would just reiterate 
to the Attorney General I am disappointed that the 
administration will not come out and say they will support an 
extension of the assault weapons ban and respectfully ask you 
to consider doing that.
    Senator Chambliss. Senator Edwards.
    Senator Edwards. Thank you, Mr. Chairman.
    Director Mueller, thank you for taking the time last week 
to--we spent an afternoon together, you and some of your folks, 
and it was very useful and I appreciate it very much. I want to 
commend you and all the good people working hard at the FBI. 
You have a very good group of people there. They are dedicated 
and they care about what they are doing, and that was obvious 
in the time that I spent there.
    We still have a structural disagreement about the best way 
to do domestic intelligence, but I want to work with you. I 
want to continue to talk to you, and at least speaking from my 
side I found the afternoon we spent together very useful and 
thank you for doing that.
    Mr. Mueller. Thank you, Senator. Thank you for coming down.
    Senator Edwards. Thank you.
    Secretary Ridge, I want to actually followup in a broader 
way on an area that Senator Schumer just asked about. As you 
know very well, there are thousands of these 40-ton containers 
coming through our ports everyday, any one of which can hold 
something that could do us great harm--a dirty bomb. Senator 
Schumer mentioned the possibility of a nuclear weapon. A 
minuscule number of those are actually inspected.
    The Coast Guard estimated this past December that in order 
to adequately strengthen the ports would cost--this is their 
estimate--$963 million right away. The budget passed, I think, 
included $250 million. In addition to that, there is a customs 
container security initiative to screen cargo in foreign ports, 
not our ports, but in foreign ports. President Bush's Customs 
Commissioner asked for $57 million for that initiative. The 
administration, though, requested nothing and the program got 
just, I believe, $12 million.
    With the Coast Guard and the Customs Commissioner saying we 
need a much bigger investment in port security, and with 
thousands of these big containers coming in through our ports 
everyday, with only, as you well know, a small percentage of 
them being actually inspected, are the Coast Guard and the 
Customs Commissioner wrong?
    Secretary Ridge. Senator, first of all, the cargo security 
initiative, I believe, ended up with the support of Congress 
getting additional dollars beyond the $12 million that you 
talked about. I have had a good conversation with Commissioner 
Bonner because we think this is one of the most effective ways 
to deal with commercial shipping and container traffic. And I 
am glad you are supportive of the program because we think it 
will make a considerable difference in the long run.
    There are various estimates as to the dollars we need to 
secure our ports. I will not second-guess the amount of money 
that either Rob Bonner or Commandant Collins have suggested. We 
do have some flexibility that you have given us in the new 
Department of Homeland Security to move some money around some 
of the individual line items.
    Again, it is a matter of going about the business of 
building capacity not in a single year but over the next 
several years, and I am confident that we can get it done. The 
measure that Congress passed at the end of last session--I 
think the Maritime Transportation Security Act--vested in the 
Coast Guard the responsibility to do vulnerability assessments 
and come up with protective measures. That is a process that is 
ongoing so we can confirm the cost associated with those 
protective measures.
    At an appropriate time, if we can't fund the kind of effort 
that we think is needed, then it would be the appropriate time 
to make a specific inquiry back to you. I am not going to 
suggest that their preliminary assessments are inaccurate, but 
we haven't done the complete vulnerability assessment that 
Congress directed yet.
    Senator Edwards. Well, you understand our concern.
    Secretary Ridge. Sure.
    Senator Edwards. You know this as well as anybody, better 
than most. The threat exists today and we are concerned about 
making sure we do everything today.
    Can I ask you a specific question about this? Would you 
support a supplemental request for more funding for port 
security?
    Secretary Ridge. Senator, we are going to support a request 
for additional dollars to assist us. I am confident once we 
have completed vulnerability assessments and what we think is 
the appropriate Federal role to secure those various ports--and 
we have begun that process, Senator. We began that in the 
Office of Homeland Security.
    The President has just released a critical infrastructure 
protection strategy that calls on the Coast Guard and the new 
department to make these assessments, to see what the costs 
are, and then a decision is to be made at that time.
    In the meantime, the Coast Guard has considerably enhanced 
the number of patrols. The collaboration at the local ports has 
been substantially enhanced and it is certainly far better 
security than ever before. The cargo security initiative is in 
here. We are working with our friends in Canada and Mexico at a 
couple of ports on a pilot program.
    So we have many initiatives dealing with port security, the 
ultimate cost of which is to be determined. We will have 
determine whether we can absorb it in the Department of 
Homeland Security and, if it is an appropriate Federal cost, 
come back to you for a specific amount.
    Senator Edwards. Can you tell me today what percentage of 
these 40-ton containers are being inspected?
    Secretary Ridge. I think Commissioner Bonner, I believe, 
probably testified 3 percent, 4 percent, and the Coast Guard 
did that as well. But I think it is very important, Senator, to 
emphasize that these are not random searches, that there is an 
algorithm, there is a method by which these specific vessels 
are targeted. And so it is not as if they are randomly 
targeted. They are targeted for very specific reasons. So you 
take the targeting initiative, the cargo security initiative 
and some of the other enhancements at our ports and we continue 
to enhance our security. I just need to disabuse everyone of 
the notion of just randomly boarding ships. They board them for 
very specific reasons and it is based on targeting information.
    Senator Edwards. Let me ask about one other area very 
quickly. I know our time is about to run out. This is about 
border security, if I can shift subjects just briefly.
    Secretary Ridge. Sure.
    Senator Edwards. I have read some reports, at least, that 
we have one Border Patrol agent for every five miles on the 
northern border. As you know, we have also had serious problems 
with visa over-stays both before and after 9/11. Various people 
have complained about both of those problems and concerns about 
both those problems, and I know you are also concerned about 
both of those issues.
    First, I am working on and have legislation to address the 
issue of more Border Patrol agents and more INS agents, both 
inspectors and investigators, so that we can deal with both the 
issue of patrolling our border and the issue of making sure we 
identify those who are over-staying and do something about 
them.
    Can you tell me whether you think we are doing enough and 
how much money we should be spending to deal with those two 
specific issues dealing with our border security?
    Secretary Ridge. Senator, the Congress has been very 
supportive the past two budgets in assisting the new department 
in ramping up and increasing the number of both inspectors and 
Border Patrol agents. I think in the PATRIOT Act your 
colleague, Senator Leahy, called for a substantial increase of 
Border Patrol agents particularly on the northern border. I 
think with your financial support in the 2003 budget, once we 
get those people hired, we will be about 80 percent there.
    I think if you take a look at the reorganization plan that 
we have just began discussing and putting into effect as of 
March 1, the opportunity to blend some of the Customs 
inspectors and the INS inspectors and some of the Customs 
investigators and Border Patrol investigators gives us an 
enhanced capacity to do the kinds of things that you are 
worried about.
    One of the advantages of the flexibility that Congress gave 
us in the bill to reorganize in the Department of Homeland 
Security is we think we can put more people working with the 
Border Patrol to considerably enhance their capacity to do 
their job.
    Again, you have been very supportive; Congress has been 
very supportive with the resources we need to hire new people. 
And I look forward to the opportunity to talk to you about how 
the reorganization affects our ability to do a better job at 
the borders.
    Senator Edwards. Well, my time is up, and thank you very 
much for coming. I continue to be concerned about whether we 
are doing enough on both fronts, both port security and border 
security, but we will continue to work with you to make sure 
that we are doing what we need to do to provide the funding 
that needs to be done in both those areas.
    Secretary Ridge. Thank you.
    Senator Edwards. Thank you, Mr. Secretary.
    Secretary Ridge. Thank you.
    Senator Chambliss. Gentlemen, we are getting you out almost 
on time. We thank you for being here. As Senator Schumer said, 
I expect we will see you again and we will look forward to 
that. Thanks, guys, for the great job you are doing.
    I ask unanimous consent to enter Senator Kohl's statement 
in the record. Without objection, that is done.
    [The prepared statement of Senator Kohl appears as a 
submission for the record.]
    The record will remain open for 7 days for any written 
questions that are to be submitted to these three gentlemen.
    With that, the hearing is concluded.
    [Whereupon, at 12:35 p.m., the committee was adjourned.]
    [Submissions for the record follow.]
    [Additional material is being retained in the Committee 
files.]
[GRAPHIC] [TIFF OMITTED] 89325.001

[GRAPHIC] [TIFF OMITTED] 89325.002

[GRAPHIC] [TIFF OMITTED] 89325.003

[GRAPHIC] [TIFF OMITTED] 89325.004

[GRAPHIC] [TIFF OMITTED] 89325.005

[GRAPHIC] [TIFF OMITTED] 89325.006

[GRAPHIC] [TIFF OMITTED] 89325.007

[GRAPHIC] [TIFF OMITTED] 89325.008

[GRAPHIC] [TIFF OMITTED] 89325.009

[GRAPHIC] [TIFF OMITTED] 89325.010

[GRAPHIC] [TIFF OMITTED] 89325.011

[GRAPHIC] [TIFF OMITTED] 89325.012

[GRAPHIC] [TIFF OMITTED] 89325.013

[GRAPHIC] [TIFF OMITTED] 89325.014

[GRAPHIC] [TIFF OMITTED] 89325.015

[GRAPHIC] [TIFF OMITTED] 89325.016

Prepared Statement of Hon. Herbert Kohl, a U.S. Senator from the State 
                              of Wisconsin
    Even with the good news of this weekend's arrest of Al Qaeda 
leader, Khalid Sheikh Mohammed, some have predicted that another major 
terrorist attack is inevitable. Preventing the seemingly inevitable is 
a daunting task and yet we need to do all we can to succeed. Today we 
will assess the progress we have made to prevent a future attack and 
discuss ways to make this country a safer place.
    For example, we need to do a better job helping state and local 
government protect our communities. These agencies are responding by 
coordinating their infrastructures, forming task forces, and upgrading 
their communications capabilities. But we all know that state 
governments across the country are facing serious budget crises. 
Wisconsin is one of those states and officials there are wondering how 
the federal government plans to help the state prepare for a possible 
terrorist strike.
    Another ways to assist state and local law enforcement is to 
provide them with more targeted information under the Homeland Security 
Advisory System. Different regions of the country will face different 
threats at different times. We can help them prepared accordingly to 
assess threats and targets if the federal government gives them more 
specific information and the training to use it effectively.
    In addition it is far too easy for terrorists to obtain certain 
chemicals and poisons--such as ammonium nitrate or cyanide--that can be 
used to launch a devastating terrorist attack. We need to do more to 
ensure that the wrong people do not get a hold of these substances. I 
look forward to working with this panel to get it right.
    Finally, while we pass more laws, we must be mindful that our best 
intentions will lead to failure if we do not consider the impact of 
these new laws and regulations on our freedoms.
    Thank you.

    [GRAPHIC] [TIFF OMITTED] 89325.017
    
    [GRAPHIC] [TIFF OMITTED] 89325.018
    
    [GRAPHIC] [TIFF OMITTED] 89325.019
    
    [GRAPHIC] [TIFF OMITTED] 89325.020
    
    [GRAPHIC] [TIFF OMITTED] 89325.021
    
    [GRAPHIC] [TIFF OMITTED] 89325.022
    
    [GRAPHIC] [TIFF OMITTED] 89325.023
    
    [GRAPHIC] [TIFF OMITTED] 89325.024
    
    [GRAPHIC] [TIFF OMITTED] 89325.025
    
    [GRAPHIC] [TIFF OMITTED] 89325.026
    
    [GRAPHIC] [TIFF OMITTED] 89325.027
    
    [GRAPHIC] [TIFF OMITTED] 89325.028
    
    [GRAPHIC] [TIFF OMITTED] 89325.029
    
    [GRAPHIC] [TIFF OMITTED] 89325.030
    
    [GRAPHIC] [TIFF OMITTED] 89325.031
    
    [GRAPHIC] [TIFF OMITTED] 89325.032
    
    [GRAPHIC] [TIFF OMITTED] 89325.033
    
    [GRAPHIC] [TIFF OMITTED] 89325.034
    
    [GRAPHIC] [TIFF OMITTED] 89325.035
    

</pre></body></html>
